OFFICE OF AUDIT
FINANCIAL AUDITS DIVISION
HEADQUARTERS




      OFFICE OF THE CHIEF FINANCIAL
                 OFFICER
             WASHINGTON, DC

  ADDITIONAL DETAILS TO SUPPLEMENT
  OUR REPORT ON HUD’S FISCAL YEARS
  2012 AND 2011 FINANCIAL STATEMENTS



2013-FO-0003                NOVEMBER 15, 2012
                                                                    Issue Date: November 15, 2012

                                                           Audit Report Number: 2013-FO-0003




TO:            David P. Sidari, Acting Chief Financial Officer, F

                           /s/
FROM:          Thomas R. McEnanly, Director, Financial Audits Division, GAF

SUBJECT:       Additional Details To Supplement Our Report on HUD’s Fiscal Years 2012 and
               2011 Financial Statements


    Attached is the U.S. Department of Housing and Urban Development (HUD), Office of
Inspector General (OIG), final results of our review of HUD’s fiscal years 2012 and 2011
financial statements.

    HUD Handbook 2000.06, REV-4, sets specific timeframes for management decisions on
recommended corrective actions. For each recommendation without a management decision,
please respond and provide status reports in accordance with the HUD Handbook. Please furnish
us copies of any correspondence or directives issued because of the audit.

    The Inspector General Act, Title 5 United States Code, section 8L, requires that OIG post its
publicly available reports on the OIG Web site. Accordingly, this report will be posted at
http://www.hudoig.gov.

   If you have any questions or comments about this report, please do not hesitate to call me at
202-402-8216.
                                                November 15, 2012
                                                Additional Details To Supplement Our Report
                                                on HUD’s Fiscal Years 2012 and 2011 Financial
                                                Statements



Highlights
Audit Report 2013-FO-0003


 What We Audited and Why                       What We Found

We are required to annually audit the      In our opinion, HUD’s fiscal years 2012 and 2011
consolidated financial statements of the   financial statements were fairly presented. Our
U.S. Department of Housing and Urban       opinion is reported in HUD’s fiscal year 2012 Agency
Development (HUD) in accordance            Financial Report. The other auditors and our audit
with the Chief Financial Officers Act of   disclosed one material weakness and seven significant
1990 as amended. This report               deficiencies in internal controls, and three instances of
supplements our report on the results of   noncompliance with applicable laws and regulations as
our audit of HUD’s principal financial     follows:
statements for the fiscal years ending
September 30, 2012 and 2011. Also          -    Achieving substantial compliance with FFMIA
provided are assessments of HUD’s               [Federal Financial Management Improvement Act]
internal controls and our findings with         continued to challenge HUD.
respect to HUD’s compliance with           -    There were weaknesses in the monitoring of PIH’s
applicable laws, regulations, and               [Office of Public and Indian Housing] program
governmentwide policy requirements              funds.
and provisions of contracts and grant      -    HUD’s internal control over financial reporting had
agreements. In addition, we plan to             serious weaknesses.
issue a letter to management on or         -    CPD’s [Office of Community Planning and
before January 14, 2013, describing             Development] information and communication
other issues of concern that came to our        systems had weaknesses.
attention during the audit.                -    HUD’s oversight of the administrative control of
                                                funds process had weaknesses.
 What We Recommend                         -    Deficiencies existed in the monitoring of HUD’s
                                                unliquidated obligations.
                                           -    Controls over HUD’s computing environment had
Current and prior-year                          weaknesses.
recommendations are after each finding     -    Portfolio management of FHA systems needs
and in the Follow-up On Prior Year              improvement.
Audits section of this report. We          -    HUD did not substantially comply with the Federal
identified $107.7 million in excess             Financial Management Improvement Act.
obligations, and are recommending that     -    HUD did not substantially comply with the
HUD seek legislative authority to               Antideficiency Act
implement $628 million in offsets          -    FHA did not comply with the Cranston-Gonzalez
against public housing agencies’ excess         National Affordable Housing Act of 1990
Section 8 funding.
                            TABLE OF CONTENTS




Background and Objectives                                                             3
Internal Control
   Material Weakness: Achieving Substantial Compliance With FFMIA Continued
   To Challenge HUD                                                                    4
   Significant Deficiency 1: There Were Weaknesses in the Monitoring of PIH’s
   Program Funds                                                                      16
   Significant Deficiency 2: HUD’s Internal Control Over Financial Reporting Had
   Serious Weaknesses                                                                 23
   Significant Deficiency 3: CPD’s Grant Monitoring Needs Improvement                 29
   Significant Deficiency 4: HUD’s Oversight of the Administrative Control of Funds
   Process Had Weaknesses                                                             39
   Significant Deficiency 5: Deficiencies Existed in the Monitoring of HUD’s
   Unliquidated Obligations                                                           42
   Significant Deficiency 6: Controls Over HUD’s Computing Environment Had
   Weaknesses                                                                         49
Compliance with Laws and Regulations
   HUD Did Not Substantially Comply With the Federal Financial Management
   Improvement Act                                                                    54
   HUD Did Not Substantially Comply With the Antideficiency Act                       56
Scope and Methodology                                                                 59
Follow-up On Prior Year Audits                                                        61
Appendixes
     A. Schedule of Funds To Be Put To Better Use                                     69
     B. Federal Financial Management Improvement Act Noncompliance, Responsible
     Program Offices, and Recommended Remedial Actions                                70
     C. Auditee Comments and OIG’s Evaluation                                         72




                                            2
                       BACKGROUND AND OBJECTIVE

We are required by the Chief Financial Officers Act of 1990, as amended by the Government
Management Reform Act of 1994 and implemented by Office of Management and Budget
(OMB) Bulletin 07-04, Audit Requirements for Federal Financial Statements, to audit the U.S.
Department of Housing and Urban Development’s (HUD) principal financial statements or select
an independent auditor to do so. The objective of our audit was to express an opinion on the fair
presentation of these principal financial statements.
Management is responsible for

*      Preparing the financial statements in conformity with accounting principles generally
       accepted in the United States of America;
*      Establishing, maintaining, and evaluating internal controls and systems to provide
       reasonable assurance that the broad objectives of the Federal Financial Management
       Improvement Act of 1996 (FFMIA) are met; and
*      Complying with applicable laws and regulations.

In auditing HUD’s principal financial statements, we were required by Government Auditing
Standards to obtain reasonable assurance about whether HUD’s principal financial statements
were presented fairly, in accordance with generally accepted accounting principles, in all
material respects. We believe that our audit provides a reasonable basis for our opinion.

In planning our audit of HUD’s principal financial statements, we considered internal controls
over financial reporting by obtaining an understanding of the design of HUD’s internal controls,
determined whether these internal controls had been placed into operation, assessed control risk,
and performed tests of controls to determine our auditing procedures for the purpose of
expressing our opinion on the principal financial statements. We are not providing assurance on
the internal control over financial reporting. Consequently, we do not provide an opinion on
internal controls. We also tested compliance with selected provisions of applicable laws,
regulations, and government policies that may materially affect the consolidated principal
financial statements. Providing an opinion on compliance with selected provisions of laws,
regulations, and government policies was not an objective, and, accordingly, we do not express
such an opinion.

This report is intended solely for the use of HUD management, OMB, and Congress. However,
this report is a matter of public record, and its distribution is not limited.




                                                3
                                  INTERNAL CONTROL


Material Weakness: Achieving Substantial Compliance With FFMIA
Continued To Challenge HUD
In fiscal year 2012, HUD made limited progress in bringing its financial management systems
into substantial compliance with FFMIA. 1 In this regard, the Office of Inspector General (OIG)
continues to report that HUD’s financial management systems did not substantially comply with
FFMIA. Specifically, as reported in prior years, OIG noted inherent limitations and weaknesses
in HUD’s agencywide financial management systems in reasonably ensuring compliance with
Federal financial management system requirements. In addition, as reported since fiscal year
2009, 2 OIG reported that the Office of Community Planning and Development’s (CPD) grants
management systems did not comply with FFMIA.

Because of inherent system limitations and weaknesses, HUD’s financial management systems
could not be readily accessed and used by financial and program managers without extensive
manipulation and excessive manual processing. This situation could negatively impact
management’s ability to perform required financial management functions and efficiently
manage financial operations of the agency, which could translate to lost opportunities for
achieving mission goals and improving mission performance.


    Financial System Weaknesses
    Prevented HUD From
    Achieving Substantial
    Compliance With Federal
    Financial Management System
    Requirements

                As reported in previous audits of HUD’s financial statements, in fiscal year 2012,
                there continued to be instances of noncompliance with Federal financial
                management system requirements. These instances of noncompliance gave rise to
                significant management challenges that have (1) impaired management’s ability
                to prepare financial statements and other financial information without extensive
                compensating procedures and (2) resulted in the lack of reliable, comprehensive
                managerial cost information on its activities and outputs. In addition, since
                bringing the OMB Circular A-127 review in house in 2007, HUD had reduced the
                number of reviews completed per year from three in fiscal year 2009 to none in
                fiscal year 2012. Further, OIG noted that HUD Central Accounting Processing

1
 Public Law 104-28, dated September 30, 1996
2
 Audit report 2010-FO-0003, Additional Details To Supplement Our Report on HUD’s Fiscal Year 2009 and 2008
Financial Statements, dated November 16, 2009



                                                     4
System (HUDCAPS) obligation balances could not be traced to the HUD
Integrated Acquisition Management System (HIAMS), which rendered the system
FFMIA noncompliant.

  HUD lacked an integrated financial management system. Since fiscal year
  1991, OIG has annually reported on the lack of an integrated financial system,
  which impeded HUD’s ability to generate and report the information needed to
  both prepare financial statements and manage operations on an ongoing basis
  accurately and in a timely manner. A financial management system includes
  the core financial systems and the financial portions of mixed systems
  necessary to support financial management, including automated and manual
  processes, procedures, and controls, data, hardware, software, and support
  personnel dedicated to the operation and maintenance of system functions.

  In fiscal year 2012 our review identified several instances where the lack of an
  integrated financial management system adversely impacted internal controls
  over financial reporting. These control deficiencies are detailed in Significant
  Deficiency 2: HUD’s Internal Control Over Financial Reporting Had Serious
  Weaknesses.

   •   To prepare consolidated departmentwide financial statements, HUD
       required the Federal Housing Administration (FHA) and the Government
       National Mortgage Association (Ginnie Mae) to submit financial
       statement information on spreadsheet templates, which were loaded into a
       software application. In addition, all consolidating notes and supporting
       schedules had to be manually posted, verified, reconciled, and traced. In
       fiscal year 2012, our review found that HUD consolidation process did not
       completely eliminate $829 million in probable Ginnie Mae claims and
       FHA loss payables.

   •   The methodology for calculating the allowance for loss for loan
       receivables found that HUD did not always re-evaluate its methodology
       to consider changes in relevant factors, did not obtain input from the
       applicable program office, or utilized a loss rate that could not be
       supported based on previous write-offs and collections. Re-evaluations of
       the Flexible Subsidy and Section 202 loan receivable loss rates resulted in
       adjustments of $527.8 million.

   •   In our test of completeness of Accounts Receivable, we noted that HUD
       did not always record amounts it was owed by others which were
       identified in OIG audits, repayment agreements, or its own program
       monitoring activities. Our review noted a potential total of $77.4 million
       in funds that HUD did not accrue account receivables in the accounting
       records.




                                5
                   As reported in Significant Deficiency 4: HUD’s Oversight of the Administrative
                   Control of Funds Process Had Weaknesses, HUD has not fully implemented a
                   compliant Administrative Control of Funds process. HUD’s lack of compliance
                   with its own funds control processes that ensures that its obligations and
                   expenditures stay within its authorized budget limits and comply with the Anti-
                   Deficiency Act or OMB A-11 requirements. As a result, HUD could not assure
                   that obligations and costs are in compliance with applicable law, assets are
                   safeguarded from waste, loss, unauthorized use, or misappropriation, and
                   revenues and expenditures are properly recorded and accounted for.

                   To overcome these deficiencies with respect to internal controls over financial
                   reporting, HUD continued to rely on extensive compensating procedures in the
                   preparation of its annual financial statements and other financial reports that were
                   costly, labor intensive, and not always efficient.

                      HUD’s financial systems did not provide managerial cost data. In fiscal year
                      2006, the U.S. Government Accountability Office (GAO) reported 3 that
                      HUD’s financial systems did not have the functionality to provide managerial
                      cost accounting across its programs and activities. This lack of functionality
                      resulted in the lack of reliable and comprehensive managerial cost information
                      on its activities and outputs. HUD lacked an effective cost accounting system
                      that was capable of tracking and reporting the costs of HUD’s programs in a
                      timely manner to assist in managing its daily operations. This condition
                      rendered HUD unable to produce reliable cost-based performance information.

                      Annual scheduled A-127 reviews were not completed. Since bringing the OMB
                      Circular A-127 review in house in 2007, HUD had reduced the number of
                      reviews completed from three in fiscal year 2009 to none in fiscal year 2012.
                      In fiscal year 2010, HUD had planned to conduct an A-127 review of one core
                      financial system and five financial management systems each year in response
                      to an OIG audit recommendation. During our review in fiscal year 2012, OIG
                      determined that HUD had not implemented its annual scheduled A-127
                      reviews. For example, the FHA-SL core system review, which began in 2010,
                      had been in draft form since 2011 and was not complete as of September 30,
                      2012. In addition, the Ginnie Mae Financial and Accounting System core
                      system review, which began in 2012, was in process and new reviews of
                      systems had not been completed.

                      HUDCAPS obligation balances could not be traced to HIAMS. In fiscal year
                      2006, 4 OIG audited the HUD Procurement System (HPS) and the Small
                      Procurement System (SPS) and determined the systems to be noncompliant
                      with Federal financial management requirements. The Office of the Chief

3
    GAO-06-1002R, Managerial Cost Accounting Practices, dated September 21, 2006
4
    Audit report 2007-DP-0003, Review of HUD’s Procurement Systems, issued January 25, 2007



                                                       6
Procurement Officer (OCPO) worked to improve those applications and to
implement HIAMS as a replacement application between fiscal years 2007 and
2011. OCPO began a phased implementation of HIAMS in October of 2011.
The implementation was completed in January 2012.

OIG performed a limited review of the implementation of HIAMS and found
that obligation balances in HIAMS were inaccurate and did not match the
balances in HUDCAPS. As of September 28, 2012, obligation balances
differed between HIAMS and HUDCAPS for 2012 and 2013 fiscal year funds
by a net amount of more than $8.1 million. Obligation balances from fiscal
years 2009 through 2011 funds differed by a net amount of more than $5.1
million. The net amounts reflected a higher balance in HUDCAPS, indicating
that there were obligation balances from HPS and SPS that were not
transferred successfully to HIAMS. There were, however, some instances in
which the discrepancy indicated an obligation balance in HIAMS that was not
reflected in HUDCAPS. Additional discrepancies indicating balances in
HIAMS with a missing obligation or line number totaled an additional $2
million and funds within HIAMS not marked to interface with HUDCAPS
totaled another $359,304. HUD’s system of record for obligation data is
HUDCAPS; therefore, HUDCAPS is considered to have the correct obligation
balances.

Because HPS and SPS did not contain the same level of contract data that is
required in HIAMS, OCPO developed a data cleanup and transfer process that
used a combination of electronic and manual migration of data from the legacy
systems to HIAMS. Due to the legacy systems’ limitations in capturing
subaccount line data, the contracting officials used hardcopy award documents
to manually enter the appropriate subaccount line data into the HIAMS
application. OCPO did not establish adequate data validation procedures or
perform adequate testing of the manually entered data.

OMB Circular A-127 requires that all data transfers to the core financial
system be traceable to the transaction source. The transaction source data are
now maintained within HIAMS, which became the system of record for the
contract information transferred to it when OCPO completed implementation
of the system. Obligation data in HUDCAPS were not traceable to HIAMS.
OMB Circular A-123 requires management to establish and maintain effective
internal controls (either manual or electronic) to ensure the reliability of the
financial data reported by the agency. The reconciliation of the data needs to
be completed for HUD to have that assurance. The HIAMS to HUDCAPS
interface program was properly prohibiting actions (that is, obligation of funds
or contract modifications) from being taken regarding these contracts until the
data matched. As a result, HIAMS did not comply with the requirements of
FFMIA for fiscal year 2012.




                              7
HUD’s Plans To Implement a
Departmentwide Core Financial
System Were Suspended

            As noted earlier, OIG has annually reported on the lack of an integrated core
            financial system in its audits since fiscal year 1991. HUD uses five separate
            financial management systems to accomplish the core financial system functions.
            HUD initiated the Integrated Financial Management Improvement Project in an
            effort to modernize HUD’s financial management system. The initial vision
            document was initiated in 2003 and issued in 2004, and functional documents
            were created. However, progress was suspended due to a contract protest and
            OMB involvement. The contract was awarded in 2010.

            The original scope of the Project was to encompass all of HUD’s financial
            systems, including those supporting FHA and Ginnie Mae. However, the
            inclusion of the FHA and Ginnie Mae portions was put on hold as a result of
            review by OMB before the execution of the contract. The first phase of the
            Project was to replace two of the five financial management systems, resulting in
            the creation of the new Integrated Core Financial System (ICFS). Based on the
            contract, the implementation date for ICFS was March 2012. This date was not
            met, and ICFS was not implemented.

            In March 2012, HUD’s Deputy Secretary stopped work on the Project, and HUD
            began reevaluating its options for the Project. Sponsorship of the Project was
            transferred from the Office of the Chief Financial Officer (OCFO) to the HUD
            Deputy Secretary. The Deputy Secretary and a working group comprised of
            OCFO, the Office of the Chief Information Officer, and OCPO continued
            reassessing their options for the Project through the end of the fiscal year. They
            are jointly working to determine the best path forward which minimizes risks and
            achieves a cost effective solution. Consideration is being made toward a shared
            service solution with other agencies and other alternatives. To date, HUD has
            spent more than $35 million on the Project and does not have an integrated core
            financial system.

CPD’s Grant Management
Systems Did Not Substantially
Comply With FFMIA

            CPD’s information systems did not comply with internal control and Federal
            accounting standards as required by FFMIA.

            Use of FIFO caused IDIS to be noncompliant with FFMIA. The Integrated
            Disbursement Information System (IDIS) Online used a first-in, first-out (FIFO)
            technique to disburse the formula grants administered by CPD. IDIS was created
            to manage the formula grants before the enactment of the Chief Financial Officers

                                             8
                 (CFO) Act of 1990, the Federal Managers’ Financial Integrity Act of 1982
                 (FMFIA), and FFMIA. These three public laws required agencies to submit
                 annual audited financial statements in accordance with applicable Federal
                 accounting standards and implement internal controls to ensure that (1) resource
                 use was consistent with laws, regulations, and policies; (2) resources were
                 safeguarded against waste, loss, and misuse; (3) reliable data were obtained,
                 maintained, and disclosed in reports; and (4) agencies’ Federal financial
                 management systems complied with computer security requirements, internal
                 control requirements, core financial system requirements, Federal accounting
                 standards, and the application of the U.S. Government Standard General Ledger
                 (USSGL) at the transaction level. As the system was owned and used by CPD for
                 the purpose of administering grants, the determination of whether the system
                 complied with these public laws was not a priority of the program office. Further,
                 it was the responsibility of OCFO to assess the compliance of agency financial
                 management systems with these laws. After the enactment of these public laws,
                 all changes necessary to ensure that the system complied with these requirements
                 were not made. OIG determined that the use of the FIFO technique did not
                 comply with Federal accounting standards or budgetary internal control
                 requirements. The use of FIFO by the system made IDIS noncompliant with
                 OMB Circular A-127, Federal Financial Management Systems Requirements.

                 FFMIA required all financial management systems to follow FFMIA section
                 803(a) requirements. All systems must comply with computer security and
                 internal control requirements. However, only core financial systems must comply
                 with Financial Systems Integration Office core financial system requirements and
                 accounting standards and apply the USSGL at the transaction level. A mixed
                 system is an information system that can support both financial and nonfinancial
                 functions. Mixed systems do not have to record transactions using USSGL
                 accounts; however, data coming from the mixed system must be posted to the
                 core financial system using proper USSGL accounts and accounting standards.
                 IDIS Online was the mixed system used by CPD for the management of CPD’s
                 formula grant programs. 5 Grantees made grant disbursement requests, which
                 served as the financial portion of IDIS that was interfaced with HUD’s core
                 financial systems, 6 which must be posted to the core financial system using
                 proper USSGL accounts and accounting standards.




5
  IDIS supports the four CPD formula grant programs: Community Development Block Grant (CDBG), HOME
Investment Partnerships (HOME), Emergency Shelter Grants, and Housing Opportunities for Persons With AIDS
and the related American Recovery and Reinvestment Act of 2009 programs: CDBG-Recovery, Tax Credit
Assistance Program (TCAP), and Homelessness Prevention and Rehabilitation Program (HPRP).
6
  The payment requests from the systems are interfaced with HUD’s Line of Credit Control System (LOCCS),
which interfaces into HUD’s core financial systems and is used to disburse funds. LOCCS then interfaces with PAS
and HUDCAPS, the accounting systems used to generate the financial statements, to provide the disbursement
information.


                                                       9
                OIG communicated IDIS’s noncompliance in fiscal year 2009 to CPD. During
                the fiscal year 2009 audit, 7 OIG found IDIS noncompliant with FFMIA as a result
                of the deficiencies identified in internal control and the improper use of an
                accounting method for disbursing and recording grant disbursements.

                GAO’s Title 2 8 recognized that the accounting for a Federal assistance award
                begins with the execution of an agreement or the approval of an application in
                which the amount and purposes of the grant, the performance periods, the
                obligations of the parties to the award, and other terms are established and creates
                a legal obligation to disburse the assistance funds.

                CPD formula grants are mandated through Congress’s appropriation. Before the
                grantee’s receipt of its annual allocation of the appropriation, it first had a
                consolidated plan and annual action plan, which identified its proposed use of the
                funds approved by HUD. After both plans were approved, both parties executed
                an obligation agreement. The agreements identified the amounts and purposes of
                the grant, the obligations of the parties to the award, and other terms and served as
                the legal point of the obligation. In essence, the approved plans served as an
                addendum to the obligation agreement, since the agreement could not be executed
                without the plans and once the plan is approved, HUD is mandated by the
                appropriation to provide the funds to the grantee. In addition to the legal point of
                obligation, the execution of the agreement initiated a financial transaction and
                required CPD to record an obligation in its financial accounting records and to
                identify a related budget fiscal year source of funding for the agreement in
                accordance with Federal budgetary accounting laws and accounting standards,
                which it used to record the obligation. The budget fiscal year defined the source
                of funds and established the timeframes for suballocation, expenditures, and when
                the funds would be returned to the U.S. Treasury if not expended. This source,
                identified at point of obligation at the initiation of the financial transaction event,
                is required by budgetary internal controls to remain constant and used to record
                other financial transaction events related to the obligation, such as suballocations
                and disbursements initiated by the grantee. IDIS’s use of FIFO created financial
                transaction events inconsistent with the actual events of the obligation and
                inconsistent with the financial transactions recorded by the grantee, which
                initiated and was aware of the actual event.

                Budget controls are part financial reporting and part compliance controls and
                provide reasonable assurance that budgetary transactions, such as obligations and
                outlays, are properly recorded, processed, and summarized to permit the

7
  Audit report 2010-FO-0003, Additional Details To Supplement Our Report on HUD’s Fiscal Years 2009 and 2008
Financial Statements, issued November 16, 2009
8
  Accounting Principles, Standards, and Requirements; Title 2 Standards Not Superseded by FASAB [Federal
Accounting Standards Advisory Board] Issuances, from GAO Policy and Procedures Manual for Guidance of
Federal Agencies



                                                    10
                preparation of the financial statements, primarily the statement of budgetary
                resources, in accordance with U.S. generally accepted accounting principles
                (GAAP). In fiscal year 2009, we found that the design and implementation of
                adequate budget controls in IDIS was deficient as a result of CPD’s decision to
                record grant disbursements from the oldest budget fiscal year appropriation
                funding source available at the time of the disbursement request without regard
                for the original source of funding or accounting obligation that was recorded.
                CPD refers to this practice as FIFO. This process results in a mismatching of
                accounting obligations and recorded outlays.

                The logic used by IDIS, as directed by CPD, to select one source of funds and
                obligation to record a disbursement, rather than properly identifying and matching
                the disbursement to the source of funds and obligation agreement, demonstrated
                an internal control deficiency. Arbitrarily liquidating the funding from the oldest
                available budget fiscal year appropriation source for the fund type associated with
                the activity is not in line with budgetary internal control requirements. While this
                may have been the simplest way to manage grants at the start of the programs, it
                was before the enactment of the Federal financial management acts, and it ignored
                the requirements put in place by the public laws to implement accountability,
                consistent financial reporting, and Federal financial reporting requirements.

                During the fiscal year 2010 audit, 9 HUD provided OIG with a legal opinion as a
                basis to support the use of FIFO. However, the legal opinion only supported
                HUD’s compliance with legally obligating the funds and the disbursement of the
                funds in accordance with the appropriation’s purpose. It was unsupported
                regarding the appropriateness of the use of FIFO as an accounting method in
                relation to the accounting obligation and related disbursements. To that end, OIG
                continued to find IDIS noncompliant with FFMIA since the system continued to
                use FIFO to record obligation disbursements. OIG made four recommendations 10
                to CPD. Based on CPD’s understanding that OIG would obtain an opinion from
                GAO, CPD’s management decision was to wait to hear from GAO before
                proceeding further. OIG has since communicated that a legal opinion regarding
                the use of FIFO as an appropriate accounting method for recording disbursements
                will not be sought; however, CPD has not updated its management decision;
                therefore, no recommendations have been implemented by CPD.

                HUD’s use of FIFO was not supported by accounting standards. OCFO was
                responsible for overseeing all financial management activities relating to the
                programs and operations of the agency and developing and maintaining an
                integrated agency accounting and financial management system, including
                financial reporting and internal controls, which comply with applicable
                accounting principles, standards, and requirements and internal control standards,

9
  Audit report 2011-FO-0003, Additional Details To Supplement Our Report on HUD’s Fiscal Years 2010 and 2009
Financial Statements, issued November 15, 2010
10
   See Follow-up of Prior Year Audits section of this report, recommendations 7a-7d.


                                                    11
                as well as any other requirements applicable to such standards. Additionally,
                OCFO was responsible for directing, managing, and providing policy guidance
                and oversight of agency financial management personnel, activities, and
                operations, including the approval and management of agency financial
                management systems design or enhancement projects. When OIG found
                additional deficiencies in internal control, deficiencies in the system’s computer
                security, and the continued use of FIFO during the fiscal year 2011 audit, 11 it
                reported the system as noncompliant with FFMIA for the third year and made
                three recommendations to OCFO.

                During the fiscal year 2012 audit, OCFO attempted to implement the three
                recommendations from the fiscal year 2011 audit regarding IDIS. When OIG
                reviewed OCFO’s evidence to provide closure of two of the recommendations, it
                determined that evidence was not supported by Federal financial accounting
                standards, as specifically requested, referenced prior work completed, which OIG
                noted was inadequate, and referenced legal opinions and appropriations law. OIG
                communicated to OCFO that the review did not satisfy the recommendations and
                asked OCFO to reopen the two recommendations.

                During fiscal year 2012, OIG performed additional procedures in an attempt to
                quantify the effects of using FIFO to record financial transactions, by comparing
                the information in IDIS to the grantee’s records, which is required to be
                maintained using generally accepted accounting principles. While the results did
                not specifically quantify the effects of using FIFO, it did find a projected
                irreconcilable net difference of $671.5 million between the grantees’ records of
                the total obligation balance as of July 31, 2012, and IDIS, and an irreconcilable
                absolute difference of $1.3 billion. In addition, we found an irreconcilable
                projected absolute difference of $560.4 million between the grantees’ records of
                disbursements made between October 1, 2011, and July 31, 2012, and IDIS. To
                allow for possible effects from record-posting delays, we also computed and
                compared the balances at the beginning of the fiscal year by adding disbursements
                recorded between October 1, 2011, and July 31, 2012, to the obligation balances
                on July 31, 2012. In this third calculation, we found a projected irreconcilable net
                difference of $589.6 million and an irreconcilable absolute difference of $1.6
                billion between grantees and IDIS. This last comparison was found to have the
                most precision and least variance of the three. These differences indicated that the
                data reported in IDIS, and in the case of disbursements, data initiated by the
                grantee, was inconsistent with the information reported by the grantees
                maintained using generally accepted accounting principles.

                Based upon the system’s continued use of FIFO and no additional action taken by
                HUD to provide a supporting accounting basis for the use of FIFO, it remained
                noncompliant.

11
  Audit report 2012-FO-0003, Additional Details To Supplement Our Report on HUD’s Fiscal Years 2011 and 2010
Financial Statements, issued November 15, 2011


                                                    12
                 Although OIG reported internal control deficiencies and reported IDIS
                 noncompliant with FFMIA, OMB A-127, and Federal financial accounting
                 standards in fiscal years 2009, 2010, 2011, and 2012, the system is still reported
                 by the OCFO as compliant in HUD’s Agency Financial Report, due to HUD’s
                 disagreement with OIG. In addition, HUD failed to report to OMB the
                 disagreement with the OIG on the system’s compliance with OMB A-127 for
                 fiscal years 2010, 2011, and 2012, as required by the circular.

                 Internal controls within DRGR remained ineffective. In an audit conducted in
                 fiscal year 2011, 12 we determined that CPD management did not maintain
                 effective internal controls over financial reporting within the Disaster Recovery
                 Grant Reporting (DRGR) information system. Our review found that DRGR did
                 not have a sufficient data modification process in place to protect financial
                 transaction data and audit trails from being overwritten. Specifically, CPD
                 allowed DRGR grantee users to modify voucher transactions (financial events or
                 transactions) to reflect changes to program cost allocation information among
                 activities (the allocation of funds drawn for specific activities). As a result,
                 reconciliation between DRGR and HUD’s core financial applications was
                 cumbersome and time consuming. The situation was further aggravated because
                 (1) DRGR did not maintain the full voucher number for payment transactions
                 recorded in HUD’s Line of Credit Control System (LOCCS), (2) CPD allowed
                 revision of all or part of the original distribution, (3) CPD did not require grantees
                 to record a reason or justification for making the change within DRGR, (4) CPD
                 allowed voucher modifications to be made until the grant was closed out, and (5)
                 CPD did not require grantee users to obtain approval from HUD for each
                 modification transaction. Transaction-level data detailing how grantees use
                 funding provided by HUD was not transferred to HUD’s core financial
                 applications. The detailed financial transaction data were only maintained within
                 DRGR; therefore, DRGR was the financial management systems of record for
                 these data, since only summary information was transferred and maintained in the
                 core financial systems. We followed up on the status of these weaknesses during
                 fiscal year 2012 and determined that corrective actions had not been completed;
                 therefore, the control deficiencies continued to exist. Corrective actions were
                 scheduled to be completed within fiscal year 2013.

     CPD Section 108 Loan
     Guarantee Program Accounting
     Was Not Automated


                 HUD did not adequately design or implement financial management requirements
                 for the Section 108 program in its departmentwide financial management system.

12
  Audit report 2012-DP-0001, Audit Report on the Fiscal Year 2011 Review of Information Systems Controls in
Support of the Financial Statements Audit, issued February 14, 2012


                                                     13
             Section 108 did not have a computerized system to perform its financial
             management process. This program was not maintained either in the Program
             Accounting System (PAS) or LOCCS. Instead, the program relied on
             spreadsheets to account for more than $2 billion in loan guarantees. Also, there
             was no automated input interface to obtain associated grant data from
             IDIS. Additionally, when a CPD grantee did not make a bond payment, CPD
             instructed OCFO’s Accounting, Monitoring, and Analysis Division to make a
             manual deduction of funds available in the line of credit for the CDBG grant.

             FFMIA requires that the agency implement and maintain financial management
             systems that substantially comply with Federal financial management system
             requirements. OMB Circular A-127, Financial Management Systems, defines a
             core financial system as an integrated information system that may perform all
             financial functions including general ledger management, funds management,
             payment management, receivable management, and cost management and support
             the preparation of financial statements.

             Without integrated automated core financial management systems to record
             detailed program transactions, the Loan Guarantee program is unable to
             appropriately monitor loan commitment, note issue, or amount repayment, which
             may result in unreliable data that could affect the financial statements.

Conclusion

             FFMIA requires HUD to develop and maintain financial management systems
             that can generate reliable, useful, and timely information for managing current
             operations to make fully informed decisions and to ensure accountability on an
             ongoing basis. During fiscal year 2012, as in prior years, HUD made limited
             progress in bringing the financial management systems, including IDIS, Section
             108, DRGR, and HIAMS, in fiscal year 2012, into compliance with FFMIA.
             HUD continued to not meet current requirements. In this regard, OIG continues
             to report that HUD’s financial management systems did not substantially comply
             with FFMIA.




                                             14
Recommendations

          We recommend that the Office of the Chief Financial Officer

          1.a. Reopen recommendation 1B of audit report 2012-FO-003, which required
               OCFO to determine whether the methodology used by CPD for assigning and
               disbursing budget fiscal year funding sources to activities within IDIS was in
               accordance with Federal financial accounting standards and whether the
               budgetary and internal controls over financial reporting were adequately
               designed and provided reasonable assurance that misstatements, losses, or
               noncompliance material in relation to the financial statements would be
               prevented or detected in a timely manner. Specifically, HUD should prepare
               an analysis of how the use of FIFO is appropriate and compliant with Federal
               financial accounting standards, without respect to appropriation law and
               programmatic rules.

          1.b. Reopen recommendation 1C of audit report 2012-FO-0003, which required
               OCFO, in coordination with CPD, to develop modifications to IDIS and
               DRGR to correct the unacceptable errors or discontinue the use of these
               systems for any financial and budgetary information. Specifically, HUD
               should develop a plan to ensure that accounting transactions and events
               within IDIS (commitments, activity, funding, and disbursements) comply
               with Federal financial accounting standards and budgetary internal control
               requirements.

          1.c. Ensure that Section 108 Loan Guarantee program financial management
               system requirements are incorporated into HUD’s core financial system
               improvement program to get more transparent and complete information for
               financial and management reports.




                                          15
Significant Deficiency 1: There Were Weaknesses in the Monitoring of
PIH and Multifamily Housing’s Program Funds
In fiscal year 2012, HUD’s Office of Public and Indian Housing (PIH) and Multifamily Housing
spent more than $30 billion through public housing agencies’ (PHA) intermediaries to provide
operating subsidies and rental assistance that could benefit an estimated 4.6 million households.
HUD continued experiencing weaknesses with the monitoring of these PHAs. HUD needs to
ensure that PHAs (1) correctly calculate housing subsidies by corroborating the tenant income
and reasonable market rent rates; (2) use leasing capacity and funds efficiently; and (3) promote
decent, sanitary, and safe housing opportunities as well as other community initiatives. Although
there was some improvement from previous years, PHAs continued to make significant amounts
of improper payments in their rental housing assistance programs. Additionally, they continued
to hold large amounts of reserves despite efforts to reduce and control the funding provided.


     Significant Improper Payments
     in Rental Housing Programs
     Continued in Fiscal Year 2011

                  HUD’ fiscal year 2012 study of the fiscal year 2011 estimated that errors were
                  made by the intermediaries and tenants intentionally underreported income in
                  three major rental housing assistance programs, resulting in improper subsidy
                  payments. The study was based on analyses of a statistical sample of tenant files,
                  tenant interviews, and income verification data for the intermediaries’ activity.
                  HUD’s study showed that the intermediaries’ error rates for the major program
                  components tested were overpayments of $469.4 million, or 12 percent, and
                  underpayments of $225.7 million, or 13 percent. In total, the administrative errors
                  made by the intermediaries during 2011 resulted in a combined total gross
                  improper payment of $695.1 million.

                  Additionally, a second HUD study 13 on Tenants Income reported an estimated
                  $428.4 million in subsidy costs that could have been saved if the tenants
                  accurately reported their total income earned. HUD did not conduct a study to
                  estimate the error from the multifamily project owners billing to HUD for fiscal
                  year 2011, but used the $106 million estimated billing error 14 to arrive at the total
                  gross error amount of $1.23 billion in improper payments. According to HUD’s
                  fiscal year 2012 agency financial report, the overall error rate is 3.9 percent;
                  which is significantly lower than the 12 and 13 percent error rates of three major
                  programs reported in the study. Lastly, HUD reported that it conducted a survey

13
   Quality Control Study for Rental Assistance Subsidy Determinations for fiscal year 2011 by ICF Macro, October
8, 2012
14
   The billing error estimate was derived from the most recent billing error estimates for the Public Housing Program
and the Owner-administered Project-based Assistance programs.


                                                         16
                of all program and administrative activities for potential indicators of significant
                improper payments, but did not disclose that Ginnie Mae’s mortgage security
                guarantee program was excluded from the survey. HUD assumed that this
                program is not subject to IPERA requirements because it did not receive
                appropriated funds. However, HUD’s risk assessments included FHA’s guarantee
                programs which do not receive appropriated funds as well. This indicates a lack
                of consistency in the scope of the survey.

                Our fiscal year 2012 improper payment audit report 15 found that in general,
                HUD’s Fiscal Year 2011 Agency Financial Report and Accountable Official
                Report plans for addressing improper payments complied with Improper
                Payments Elimination and Reduction Act (IPERA), Executive Order 13520, and
                OMB Circular A-123 implementing guidance. However, HUD’s outdated risk
                assessment process did not fully support its basis for identifying which programs
                should be included in its erroneous payment study. We reported that HUD’s risk
                assesment did not include a methodology for determining dollar amounts of
                potential improper payments. In addition, although HUD’s improper payment
                reduction strategies were progressing in a positive direction, we found that
                additional improvements were needed to strengthen HUD’s improper payment
                reduction strategies and enhance the accuracy of HUD’s estimated improper
                payment rate for rental housing assistance programs.

     Public Housing Agencies
     Continued To Hold a Large
     Excess of Reserves

                The Section 8 Housing Choice Voucher program is HUD’s largest housing
                assistance program, with an annual appropriation of around $18 billion for
                calendar year 2012, and provided assistance to more than 2 million families
                through the first 6 months of 2012. The annual appropriation acts require HUD to
                distribute the full amount of funding appropriated using a formula based on the
                housing agencies’ self-reported prior-year costs, which are reported and tracked in
                the Voucher Management System. Program guidance states that any budgetary
                authority provided to PHAs that exceeds actual program expenses for the same
                period must be accounted for and maintained as restricted cash and made
                available for housing assistance. These funds were designated as the PHA’s net
                restricted assets (NRA).

                In 2012, HUD received the authority for an offset of $650 million to the PHAs’
                renewal funding to reduce the NRA reserves. In addition, HUD will begin
                reducing the outlays and transition the custody of PHAs’ NRA funds from PHA

15
  Audit report 2012-FO-0005, Annual Evaluation of HUD’s Compliance With the Reporting Requirements of the
Improper Payments Information Act of 2002, Executive Order 13520, and OMB Circular A-123 Implementing
Guidance


                                                    17
                 custody to HUD. Although the funds were still available for PHA use, the PHA
                 will have to request and justify to HUD any increases of advances. Cash
                 management procedures 16 will help mitigate the risk associated with PHAs
                 accumulation of fund surpluses by safeguarding them at HUD, but would not
                 control the accumulation of PHAs fund reserves in HUD’s books. Because this
                 practice has not been fully implemented, the full impact of this significant change
                 could not be evaluated.

                 However, as of June 30, 2012, PHAs had not maximized leasing rates or used all
                 available resources. This condition contributed to an accumulation of $628
                 million in excess NRA. This calculation was based on our examination of 2,297
                 PHAs contained in the NRA monitoring report as of June 30, 2012, which
                 reported having a combined NRA balance of $1.43 billion. Based on our analysis
                 of the unit-leased voucher utilization rates of PHAs, we observed that PHAs were
                 not fully using resources or assisting the maximum number of families. PIH
                 should request the authority needed to perform recurring offsets of PHAs’
                 renewal funding with excessive NRA amounts such as the $628 million identified.

     The MTW Demonstration
     Program Lacked Procedures To
     Ensure Reliable Performance
     Reporting


                 The Moving To Work Demonstration program (MTW) was established to give
                 public housing agencies and HUD the flexibility to design and test innovative,
                 locally designed strategies in pursuit of the national goal of delivering rental
                 assistance more efficiently. The program’s intent is to pursue three statutory
                 objectives: (1) reduce cost and achieve greater cost effectiveness in Federal
                 expenditures; (2) give incentives to families with children when the head of
                 household is working, seeking work, or preparing for work by participating in job
                 training, educational programs, or programs that assist people in obtaining
                 employment and becoming economically self-sufficient; and (3) increase housing
                 choices for low-income families. Interest in participation in MTW has expanded
                 such that the number of MTW PHAs increased from 30 in fiscal year 2010 to 35
                 in fiscal year 2012. However, HUD’s internal controls were not sufficient to
                 capture and evaluate agencies’ performance and use of funds toward meeting the
                 MTW requirements above.




16
  HUD issued PIH Notice 2011-67 “Implementation of New Cash Management Requirements for the Housing
Choice Voucher Program” to control disbursement of funds to PHAs to ensure that PHAs do not receive federal
funds before they are needed as required by Section 2025 of Treasury Financial Manual, Vol. 1, Part 6.


                                                      18
                  HUD did not establish monitoring tools necessary to ensure that the MTW 17
                  statutory goals were met. Additionally, HUD did not finalize or implement
                  performance measures and the methodology needed to evaluate performance of
                  PHAs in achieving the program goals. HUD also did not establish adequate tools
                  to verify the reliability of reported program data.

                  We reviewed a sample of five MTW PHAs participating in the program and
                  found that the reported financial and performance information in their 2011
                  annual report did not agree with the information reported in HUD’s systems.
                  Specifically, for four 18 of the five 19 PHAs reviewed, the cumulative net difference
                  between their audited financial reports and HUD’s MTW report for total revenues
                  and expenditures was more than $142 million. The MTW agency reports also
                  implied a cumulative net loss of more than $41 million. However, the audited
                  financial report showed a net surplus of more than $101 million for the same
                  timeframe.

                  Additionally, the audited financial data for the five PHAs showed that the PHAs
                  received cumulative revenues of more than $1.9 billion for the MTW program in
                  their respective 2011 fiscal years but used a total of less than $1.8 billion on the
                  program. As a result, there was an inefficient use of funds of an average of 93.6
                  percent and a surplus accumulation of nearly $122 million in MTW funding. That
                  surplus amount was retained by the PHAs, thereby increasing their program
                  reserves. Further, the overall utilization rate for the MTW available units and
                  vouchers for the five PHAs’ respective 2011 fiscal years was only 91.7 percent. 20

                  Also, HUD’s review checklists for the MTW annual plans and MTW reports
                  lacked written procedures and tests to verify and ensure that the actual program
                  data reported were reliable and adequate to measure progress toward the program
                  objective. The review system implemented by the MTW program office did not
                  have a standard documentation process or a standard review process to ensure that
                  comprehensive reviews were conducted, as the review checklists were not
                  required to be completed and retained. Further, the financial information and
                  program results contained in the MTW reports were presented differently among



17
   42 U.S.C. (United States Code) 1437f, Section 101, as amended, established MTW to give public housing
agencies and HUD the flexibility to design and test innovative, locally designed strategies in pursuit of the national
goal of delivering rental assistance more efficiently.
18
   The remaining PHA did not separate its MTW expenses from the total PHA expenses for the fiscal year in its
MTW report as required. Therefore, the information selected in this section was not included in our review.
19
   The five PHAs reviewed were (1) Chicago Housing Authority, (2) Massachusetts Department of Housing and
Community Development, (3) Oakland Housing Authority, (4) Philadelphia Housing Authority, and (5) Atlanta
Housing Authority.
20
   OMB Circular A-123, section I, states, “The proper stewardship of Federal resources is an essential responsibility
of agency managers and staff. Federal employees must ensure that Federal programs operate and Federal resources
are used efficiently and effectively to achieve desired objectives.”


                                                          19
                  PHAs because HUD did not implement standardized reporting requirements. 21
                  As a result, there was not always sufficient documentation from which to draw
                  comparative conclusions on MTW PHA performance.

                  The discrepancies identified were an indication that one of the information
                  sources was unreliable or the systems and reports were not measuring and
                  reflecting the same program information. Thus, HUD could not verify the data
                  reported. As a result, information users had no assurance that the reported results
                  of the program were accurate and could not ensure that the program met the
                  statutory objective in an effective and efficient manner.

                  While each MTW PHA’s program and agreement are different, HUD’s lack of a
                  standardized reporting process hindered its ability to effectively analyze and use
                  the reported information to make assessments and determinations for the entire
                  program. The program office’s ability to address these issues was hindered by a
                  lack of staffing and other resources necessary to accomplish its oversight
                  responsibilities. During the last 2 years, HUD has increased the number of
                  participating MTW PHAs by more than 16 percent. However, staff and program
                  resources were not increased to meet the level of effort required.

                  In a fiscal year 2012 review of MTW, 22 GAO made the following
                  recommendations: that HUD (1) improve its guidance on reporting performance
                  information, (2) develop a plan for identifying and analyzing standard
                  performance data, (3) establish performance indicators, (4) systematically identify
                  lessons learned, (5) clarify key terms, (6) implement a process for assessing
                  compliance with statutory requirements, (7) perform annual assessments of
                  program risks, and (8) verify the accuracy of self-reported data. HUD generally
                  or partially agreed with seven of the recommendations. HUD disagreed with
                  GAO’s recommendation that it create overall performance indicators. GAO
                  believed, however, that they were critical to demonstrating program results and,
                  thus, maintained its recommendation.

     Conclusion

                  HUD continued its efforts to reduce its identified improper payments in fiscal
                  year 2012 to $695 million. Our review of HUD’s fiscal year 2011 agency
                  financial report and accountable official report plans determined that they were
                  compliant with IPERA requirements. We did note some technical changes that
                  should be made to HUD’s risk assessment processes.


21
   OMB Circular A-123, section I, part A, states, “…management should have a clear, organized strategy with well-
defined documentation processes that contain an audit trail, verifiable results, and specify document retention
periods so that someone not connected with the procedures can understand the assessment process.”
22
   GAO-12-490, Opportunities Exist to Improve Information & Monitoring, issued April 19, 2012



                                                       20
          Based on our review of the use of budgetary authority, we observed that if a PHA
          maintains its leasing rate at a high percentage of annual revenues but under 100
          percent of revenues, its program reserves will grow despite the use of fiscal
          responsibility and prudence. In prior years, we have recommended and PIH has
          attempted obtaining congressional authority to perform recurring offsets of
          renewal funding against amounts deemed excessive NRA, but Congress has not
          granted that authority. We observed that the NRA will continue to accumulate,
          and program funds will not be used for their intended purpose. It is for this
          reason that PIH should continue seeking congressional authority to perform
          offsets at its discretion to ensure proper management and oversight of the voucher
          program as it is designed.

          Our review showed that HUD did not properly evaluate MTW PHAs’ progress in
          achieving program goals or verify the reliability of reported MTW data. HUD did
          not establish necessary monitoring tools to properly evaluate performance goals
          and statutory objectives and verify the accuracy of reported data. HUD also
          lacked the standardized reporting processes to assess performance or sufficient
          staffing to perform monitoring activities. The result of the lack of procedures was
          illustrated in the utilization rate and the amount of excess reserves that could have
          been used to assist families in accordance with statutory objectives. HUD should
          finalize and implement performance measures and the methodology needed to
          perform these actions to ensure that statutory objectives were consistently met by
          the MTW PHAs.

Recommendations

          We recommend that the Assistant Secretary of Public and Indian Housing

          2.a. Request that Congress include in the appropriations bill an offset of renewal
               funding for the Housing Choice Voucher program of $628 million or the
               amount of reserves in excess of 6 percent of the PHAs’ annual budgetary
               authority as of December 31, 2012.

          2.b. Continue to request the congressional authority to annually perform offsets of
               amounts of excessive NRA as determined appropriate by the program office
               to maintain and maximize the effectiveness and integrity of the Housing
               Choice Voucher program.

          2.c. Develop, implement, and document methodologies to calculate and track
               performance measures to enable comparability of data among MTW PHAs
               and ensure the reliability of reported data.

          2.d. Develop, implement, and document standardized reporting requirements for
               the MTW data and results for all MTW PHAs.



                                           21
2.e. Update the MTW plan and report review procedures to include steps to verify
     the reliability of presented data against HUD systems and retain all
     supporting documentation as evidence of controls performed.

2.f. Ensure that the staffing and funding levels for the MTW program office are
     adequate to provide proper oversight of the program.




                                22
Significant Deficiency 2: HUD’s Internal Control Over Financial
Reporting Had Serious Weaknesses
In fiscal year 2012, OIG identified weaknesses in HUD’s control over its financial reporting
process. For example, OIG found that (1) the allowance for loss on Section 202 flexible subsidy
and Section 312 direct loan receivables was not routinely evaluated for reasonableness, (2) HUD
did not always record receivables in the accounting records when a determination was made that
funds were owed to HUD and required repayment, and (3) intraentity transactions between
HUD’s component entities were not properly eliminated before consolidation.

This condition occurred because of a weak financial management governance structure, lack of
clear accounting policy guidance, and poor accounting monitoring controls. As a result of our
audit, significant adjustments were made to the flexible subsidy and Section 202 allowance for
loss accounts in the amount of $515 million and $12.8 million in HUD’s books in fiscal year
2012. With regard to accounts receivable, we identified a potential $77.4 million in accounts
receivable not included in HUD’s consolidated financial statements. Lastly, intraentity
transactions between FHA and Ginnie Mae were not eliminated before consolidation. Given
these weaknesses in HUD’s internal controls, HUD lacked assurance that its internal controls
could prevent and detect errors in its accounting records adequately and in a timely manner.


 Flexible Subsidy, Section 202,
 and CPD Section 312 Direct
 Loan Allowance for Loss Rates
 Need To Be Reevaluated


              We reviewed the allowance for loss methodology and rates for three direct loan
              programs that reported balances under the “loans receivable” line item on the
              consolidated balance sheet. OCFO used a 90 percent allowance for loss rate for
              flexible subsidy loans, which was the recommended rate in fiscal year 2001 and
              had not been reevaluated with Office of Housing input since then to consider
              changes in relevant factors. Our review of writeoffs and foreclosures for the
              flexible subsidy loan program over the past 10 years indicated that the 90 percent
              rate was unsupported. For Section 202 loans, OCFO had developed a
              methodology for calculating the allowance for loss rate but had done so without
              input from the Office of Housing. According to OCFO, the methodology and
              rates used had not been reviewed by the Office of Housing to determine whether
              they were appropriate and considered relevant factors. Lastly, for CPD Section
              312 loans, OCFO was using a 95 percent allowance for loss rate. Our review of
              writeoffs and collections indicated that the 95 percent rate was unsupported and
              may have understated the associated receivable.




                                              23
The Loan Receivable Net
Realizable Value Was
Understated

           Statement of Federal Financial Standards (SFFAS) 2, Accounting for Direct
           Loans and Loan Guarantees, states that reestimates should be completed each year
           and should consider risk factors such as loan performance, economic conditions,
           and newly developed events that may affect loan performance; characteristics of
           borrowers; and value or changes in value of collateral.

           Reevaluations with program office input over these three loan programs were not
           completed due to the lack of formal policies issued by OCFO and were not
           detected in ordinary management and financial reporting processes. OCFO did
           not have a formal policy requiring an annual reevaluation of allowance for loss
           methodologies and rates for all loan portfolios and accounts receivable balances.
           As a result, the net realizable value for the flexible subsidy loans was misstated.

           In coordination with the Office of Housing, OCFO revised the allowance for loss
           methodologies and rates for the flexible subsidy and Section 202 loan programs.
           These revised methodologies and rates resulted in adjustments to the flexible
           subsidy and Section 202 allowance for loss accounts in the amount of $515
           million and $12.8 million, respectively. Additionally, the redrafted allowance for
           loss methodologies for the flexible subsidy and Section 202 loan programs
           included the requirement that the rates be reevaluated annually.

Recognition of Accounts
Receivables Was Not Always
Timely

           HUD did not always record a receivable when sustained OIG audit
           recommendations, final program monitoring letters, or repayment agreements
           required funds to be repaid. The majority of repayments were recorded as
           receivables on the date the funds were collected. Receivables should be
           recognized on the date the funds are determined to be owed to HUD in
           accordance with GAAP.

           We reviewed 24 OIG audit reports with a total of $78 million in outstanding
           sustained costs due to HUD to determine whether OCFO properly accrued
           receivables in compliance with GAAP. There were 16 reports with
           recommendations totaling $72.6 million that had not been recorded as a
           receivable in the general ledger as of September 30, 2012. HUD did not accrue 8
           of the16 totaling $1.7 million, which were under repayment agreements from
           prior fiscal years.



                                            24
          We also sampled 55 receivables, worth $25.5 million, collected during fiscal year
          2012. Eleven of these collected receivables totaling $3.5 million originated from
          program monitoring findings, and six totaling $1.3 million were in accordance
          with established repayment agreements. Collections for all 17 transactions
          occurred between 116 and 2,976 days after the receivable event occurred.
          However, HUD did not accrue any of the receivables until the payment collection
          date. For those that had repayment agreements in place, we determined that there
          had been no accruals for the balance recorded in the accounting records as of
          September 30, 2012.

          According to SFFAS 1, a receivable should be recognized when a Federal entity
          establishes a claim to cash against other entities, such as a payment due date. If
          the exact amount is unknown, a reasonable estimate should be made. HUD’s
          Debt Collection Handbook 1900.25, REV-4, specifies that funds are often
          determined to be owed to HUD during routine monitoring and accounting
          activities, sustained audit findings, and investigations. The funds are recognized
          as a receivable when the monitor or other person discovering the funds owed is
          required to notify the action official for the program activity. For example, when
          an OIG audit report recognizes that disallowed costs are due to HUD, the debt is
          treated as a receivable when a management decision is reached. Also, HUD’s
          Audit Management System Handbook 2000.06, REV-4, states that the Assistant
          Chief Financial Officer for Accounting is responsible for establishing procedures
          for ensuring that the amounts due to HUD are appropriately accounted for and
          collected. The action official should notify the accounting office of any audit
          reports with disallowed costs due HUD and any modifications to costs and
          monitor the costs.

HUD Lacked Controls Over
Repayment of Funds

          Our review found that adequate controls were not in place to ensure that the
          accounting center was notified of the funds to be repaid at the time repayment was
          recognized, either through a sustained OIG audit recommendation, final program
          monitoring letter, repayment agreement, or other binding document.
          Additionally, some of HUD’s program offices did not consider the return of funds
          to be a receivable. Therefore, they did not have procedures or think they needed
          to report these owed funds to the accounting center for proper recording.

          As a proactive measure regarding OIG audit recommendation costs, OCFO issued
          a memorandum in April 2012 to all assistant secretaries, action officials, and audit
          liaison officers to remind them of their responsibility to comply with the policies
          and procedures contained in the Audit Management System Handbook,
          specifically section 5-7, Detailed Cost Information. OCFO also updated HUD’s
          Debt Collection Handbook to clarify that disallowed costs from OIG audits are
          considered receivables as of the management decision date. Further, the Audit
          Resolution and Corrective Action Tracking System (ARCATS), used to track

                                           25
                      OIG audit recommendations, was being modified to send notifications to the
                      appropriate individuals and now produces a real time report, which identifies all
                      open audit recommendations with disallowed costs due to HUD.

     Intraentity Transactions
     Between HUD’s Component
     Entities Were Not Properly
     Eliminated Before
     Consolidation

                      During our fiscal year 2012 audit, OIG found that HUD failed to eliminate
                      intraentity transactions 23 between FHA and Ginnie Mae, as component
                      organizations, to arrive at the consolidated amounts in accordance with A-136 and
                      Federal Accounting Standards Advisory Board requirements. Specifically, HUD
                      did not ensure that claim receivable and payable transactions between FHA and
                      Ginnie Mae were properly accounted for and reported by the component
                      organizations to OCFO to reasonably ensure that these transactions would be
                      eliminated during financial statement consolidation.

                      For example, as noted in the table below, OIG noted 24 three intragovernmental
                      receivable line items due from FHA in Ginnie Mae’s financial statements in
                      which FHA had no intragovernmental payable with a Ginnie Mae provision or the
                      provision was not properly separated from the liability with the public in FHA’s
                      financial statements. For each of these receivables, Ginnie Mae assumed full
                      collectability of the receivable amounts from FHA. Therefore, all three Ginnie
                      Mae receivables in substance were valid claims for cash against FHA. Consistent
                      with the GAAP concept, it is OIG’s position that the substance and not the form
                      should be reported by HUD in its books for these transactions.

                                                         Table 1
                                                               Balances as                                   Balances as of
                              Ginnie Mae receivables             of 9/30/12                                      10/1/11
                                                               (in millions)                                  (in millions)
                        Mortgages held for investment 25        $6,210                                                 $5,886
                        Advances against defaulted                  829                                                   568
                                                         26
                        mortgage-backed securities pools
                        Short sale claims receivable 27              20                                                            26

23
   The claims transactions between FHA and Ginnie Mae represent an intraentity activity.
24
   On October 24, 2012, Ginnie Mae provided OIG with the account balances for the mortgages held for investment and advances against
defaulted mortgage-backed securities pools accounts that pertained to FHA. Due to the timing of the audit report, these numbers were strictly
Ginnie Mae management’s representations.
25
   The mortgage held for investment account represents the value of defaulted loans that Ginnie Mae acquired from defaulted issuers’ portfolios to
effectively manage the portfolio.
26
   The foreclosure claims receivable represents the amount of principal and interest receivable on foreclosed-upon properties that have not been
conveyed to FHA.
27
   The short sale claims receivable is the difference between the proceeds received from the sale of FHA-insured loans and the total contractual
amount of mortgage loan and interest incurred by the borrower.



                                                                       26
                    In accordance with OMB A-136, HUD is required to present its entity receivables
                    and payables, net of intraentity transactions, to reflect consolidated totals.
                    Additionally, intragovernmental receivables and payables should be reported
                    separately from the receivables and payables to the public in accordance with
                    SFFAS.

                    OCFO did not adequately monitor the appropriateness and completeness of the
                    component entities’ quarterly financial report submissions to reasonably ensure
                    that intraentity claims receivable and payable between Ginnie Mae and FHA were
                    properly accounted for and reported on a consolidated basis. According to
                    OCFO, Ginnie Mae and FHA did not report their intraentity claims payable and
                    receivable in the “F” file, 28 which prevented them from eliminating these
                    intraentity transactions upon consolidation. We noted that OCFO did not provide
                    guidance to their components on this matter.

     Conclusion

                    HUD’s loan receivable net realizable value and account receivable balances were
                    misstated as of September 30, 2012. Additionally, intraentity transactions were
                    not properly eliminated in the consolidated financial statements. To ensure that
                    the net realizable value of loans and accounts receivable is accurately reported,
                    accounts receivable are properly accrued, and intraentity transactions are properly
                    eliminated on HUD’s financial statements, OCFO needs to develop and
                    implement financial management policy and controls to ensure that errors in
                    accounting records are prevented or detected in a timely manner.

     Recommendations

                    We recommend that the Office of the Chief Financial Officer

                    3.a. Develop and implement formal financial management policies and
                         procedures regarding GAAP-compliant fiscal yearend consolidation.

                    3.b. Revise HUD’s Debt Collection Handbook 1900.25, REV-4, to include
                         comprehensive procedures to ensure that amounts to be repaid from program
                         monitoring findings, repayment agreements, and other binding documents are
                         communicated to the accounting center for timely accrual of receivables.

                    3.c. Develop and implement formal financial management policies and
                         procedures to require an annual evaluation by OCFO and applicable program



28
     The “F” file contains transactions with HUD and its components, including other Federal agencies.


                                                          27
    offices of all allowance for loss rates and other significant estimates currently
    in use to ensure appropriateness.

3.d. Develop and implement internal procedures within the accounting centers to
     ensure that amounts owed to HUD from OIG audit recommendations,
     program monitoring findings, repayment agreements, and other binding
     documents are properly accounted for, collected, and reported.

3.e. For OIG audit recommendations with costs that have not been finalized at the
     management decision date, develop a methodology to calculate an
     appropriate estimate of the anticipated amount owed to ensure that an
     appropriate account receivable amount is accrued.

3.f. Establish an appropriate allowance for loss methodology and adjustment for
     receivables established due to OIG audit recommendations, program
     monitoring findings, repayment agreements, and other binding documents.




                                 28
Significant Deficiency 3: CPD’s Information and Communication
Systems Had Weaknesses
The Office of Community Planning and Development’s (CPD) information and communication
systems did not collect and disseminate timely, reliable and relevant information to those
charged with making informed decisions. Based upon our review of CPD’s programs and
internal controls implemented to monitor grantee compliance with program regulations, we noted
that even though improvements had been made, the computer information systems did not have
reliable information and some processes had ineffective means of sharing and processing
information. Prior year recommendations remained unimplemented and control deficiencies
regarding the programs’ compliance with internal handbooks and OMB regulations continued to
exist.



     New Controls Brought
     Improvement

                Based upon our review of several yearend reports from the Office of Affordable
                Housing Programs (OAHP), improvements have been made since the prior year.
                Our fiscal year 2011 audit reported that the HOME Open Activities Report, dated
                September 30, 2011, contained 6,994 of 21,121 open activities (33 percent) in
                which the participating jurisdiction had made its final draw but the activity was
                still listed on the report as open 29. These activities were not completed in the
                system because the completion and beneficiary information was not entered,
                although all of the $782.5 million in funds had been drawn. HOME program
                regulations required participating jurisdictions to enter project completion
                information into IDIS within 120 days of making a final draw for a project.
                Similar findings were reported in fiscal years 2009 30 and 2010. 31

                As a result of the prior OIG findings, OAHP implemented a new policy during
                fiscal year 2012 in which participating jurisdictions with at least one HOME
                activity in final draw status were not able to set up new activities or commit funds
                to activities (other than those in final draw for more than 120 days) until the
                activities identified as being in final draw status for more than 120 days were
                either completed or otherwise taken out of final draw status.


29
   Audit report 2012-FO-0003, Additional Details To Supplement Our Report on HUD’s Fiscal Years 2011 and
2010 Financial Statements, issued November 15, 2011
30
   Audit report 2010-FO-003, Additional Details To Supplement Our Report on HUD’s Fiscal Years 2009 and 2008
Financial Statements, issued November 16, 2009
31
   Audit report 2011-FO-0003, Additional Details To Supplement Our Report on HUD’s Fiscal Years 2010 and
2009 Financial Statements, issued November 15, 2010


                                                     29
Although this new policy was implemented, our review of the HOME Open
Activities Report, dated September 30, 2012, showed 718 of 15,474 open
activities (5 percent) and $80.9 million in disbursed funds for activities in which
the participating jurisdiction had made its final draw but had not entered the
completion and beneficiary information into the system. Jurisdictions that do not
enter completion data in a timely manner or within 120 days of making the final
draw are in violation of HOME regulations. Of the 718 activities, 80 activities
were in final draw status for 120 days or more and had disbursed $15.6 million of
the $80.9 million. The widespread failure of participating jurisdictions to enter
data in a timely manner resulted nationally in underreporting of actual HOME
program accomplishments to Congress and OMB and may negatively impact
future funding for the program.

OIG also reported in 2011 that the September 30, 2011, HOME Open Activities
Report showed 307 activities, which were funded between April 2000 and
September 2010, that had a funded and remaining balance of $63.9 million, as no
draws had been made against the activities since they were initially funded. The
report further showed 190 activities funded between 1999 and 2009 in which the
percentage of amounts drawn on the activity was less than 50 percent or less.
These activities had incurred no drawdowns on the funds since 2009 and had
balances of $24 million still available for draw. OIG reported that these activities
appeared to be stalled. Similar findings were reported in fiscal year 2010. When
we reviewed the September 30, 2012 Open Activities report, we noted only 9
activities which were funded between November 2008 and September 2010 that
had a funded and remaining amount of $598,200 as no draws had been made
against the activities since they were initially funded. There were not any
activities funded between April 2000 and November 2008 that did not have any
draws since they were initially funded. The September 30, 2012 report also
showed only 69 activities funded between 2000 and 2009 wherein the percentage
of amounts drawn on the activity was less than 50 percent. These activities had
incurred no draw-downs on the funds since 2009 and had balances of $13.2
million still available for draw. There were not any activities funded in 1999 that
did not have a draw since 2009 and had less than 50 percent drawn.

As a response to the OIG findings, OAHP implemented a new policy in 2011 in
which activities with commitments in IDIS that were more than 12 months old
with no funds disbursed were automatically canceled in the system and were
reported on the monthly HUD Initiated Activity Cancellation Report. The
cancellation of the activities could potentially affect the grantee’s compliance
with HOME statutory commitment requirements. After our review in fiscal year
2011, OIG reported that the new report would take into account only those
activities that appeared to have never started and those that had been started and
not progressed would be ignored and recommended that OAHP address those
activities.




                                 30
Responding to OIG’s recommendations, OAHP implemented a policy during
fiscal year 2012, wherein activities with some disbursements, but no
disbursements for the previous 12 months or more, would be placed in the
infrequent draw status. The grantee would be unable to start a new activity or
increase commitments on other activities and unless the grantee provided an
explanation for the lack of recent disbursements and the status of the activity. As
of September 30, 2012, there were 1,129 activities included in the infrequent draw
status which had already disbursed $159.1 million; however, these activities still
had $52.9 million remaining to be disbursed. In addition, there were 483
activities in danger of being placed in the infrequent draw status within the next
30 to 90 days. In other words, the activities did not have any disbursements
within the last 9 to 11 months. These 483 activities had disbursed $81.7 million
and still had $21.4 million remaining to be disbursed. Identifying and canceling
inactive activities in a timely manner allows funds to be recommitted to new
activities.

Also, during the fiscal year 2011 audit, we reviewed the HOME Expiring Funds
Report as of September 30, 2011, and identified 68 participating jurisdictions and
124 recipients with $16.3 million in unexpended grants funded with no-year
expiration funds and dated from 1992 through 2001, and $9.9 million of the $16.3
million was uncommitted.

In our review of the HOME Expiring Funds Report as of September 30, 2012, we
identified 35 participating jurisdictions and 46 recipients with $7.6 million in
unexpended grants funded with no-year expiration funds and dated from 1992
through 2001, and $1.6 million of the $7.6 million was uncommitted.

                               Table 2
                    As of 09/30/11              As of 09/30/12
Fiscal year   Available to Available to   Available to Available to
               commit           draw       commit           draw
  1992          $40,324      $62,269          $-           $73,765
  1993          357,438      655,751        86,762         455,098
  1994          640,551     1,730,511          -           713,662
  1995          911,566     1,340,591       10,533         778,314
  1996          981,750     2,000,826       4,596          397,929
  1997          578,613      945,841        32,331         317,706
  1998         1,749,007    2,325,634      100,027         659,592
  1999         1,557,579    1,882,625      449,324        1,149,584
  2000          869,221     1,696,771       61,483        1,049,957
  2001         2,288,614    3,707,930      920,235        2,030,138
  Total       $9,974,663   $16,348,750    $1,665,290     $7,625,745

These no-year funds had accumulated due to (1) poorly performing community
housing development organizations (CHDO) and subgrantees of the participating

                                31
                jurisdictions that did not expend funds in a timely manner, (2) a cumulative
                review method that allowed poor performance to go undetected, and (3) a
                recapture policy for noncompliant participating jurisdictions that recaptured funds
                from a current funding source. Current HOME program regulations did not
                penalize or highlight poorly performing grantees, subgrantees, or CHDOs.

                During our fiscal year 2009 audit, 32 we identified unused funds from fiscal years
                2001 and earlier and pointed out that it was the field offices’ responsibility to
                ensure that the funds that were not spent in a timely manner were recaptured and
                used in the next year’s formula allocation. We recommended that CPD ensure
                that field offices encourage participating jurisdictions to review the expiring funds
                report, as well as the performance of CHDOs and subgrantees, to determine
                whether the unused funds should be deobligated. We also recommended that
                CPD develop a policy that would track expenditure deadlines for funds reserved
                and committed to CHDOs and subgrantees separately. While, these
                recommendations remain open 33, the Proposed HOME Regulation published in
                the Federal Register on December 16, 2011 makes several changes to the
                requirements of CHDOs and funding awarded to CHDOs. For example, general
                CHDO reservations would be eliminated and PJs would be required to commit
                CHDO set-aside funds to specific CHDO projects within 24 months. In addition,
                HUD would deobligate CHDO set-aside funds not expended within five years of
                obligation to the PJ. These changes were proposed and not yet published in a
                Final Rule.

         The System Used To
         Communicate Results and
         Status of Onsite Monitoring
         Was Not Effective

                During the fiscal year 2011 audit 34, a review of several key elements of the
                grantee monitoring process established under CPD’s Office of Field Management
                revealed that the CPD field offices, which are responsible for conducting
                monitoring reviews of CPD program grantees, did not always follow the CPD
                Monitoring Handbook or the annual risk assessment notice. The review also
                revealed that the Grants Management Process (GMP) information system 35 was
                not always updated to reflect the current status of the monitoring reviews.



32
   Audit report 2010-FO-0003, “Additional Details To Supplement Our Report on HUD’s Fiscal Year 2009 and
2008 Financial Statements, dated November 16, 2009
33
   See Follow-up of Prior Year Audits section of this report, recommendation 12b
34
   Audit report 2012-FO-0003, “Additional Details To Supplement Our Report on HUD’s Fiscal Year 2011 and
2010 Financial Statements, dated November 15, 2011
35
   The GMP system is a computer-based information system that is used to provide a documented record of
conclusions and results.


                                                     32
                    Our review conducted during fiscal year 2012 demonstrated that the previous
                    year’s conditions continued to exist. We found that although required by the
                    handbook, (1) field offices did not send a notification letter to the grantee more
                    than 14 days before the monitoring, (2) monitoring report letters were sent to the
                    grantee after the 60-day deadline, and (3) follow-up was not always completed
                    after findings were communicated to the grantee to ensure completion of the
                    action plans or repayment of ineligible costs identified.

                    The deadlines and responsibilities outlined in the CPD Monitoring Handbook help
                    to provide an effective system of monitoring internal controls. They include
                    providing timely and relevant information to those charged with making decisions
                    as well as timely follow-up for deficiencies identified and a process to ensure
                    collections of ineligible costs identified. However, all field offices had not
                    implemented the internal controls outlined in the handbook, which led to properly
                    designed controls being ineffective. Not following the handbook prohibits the
                    field offices from identifying instances of noncompliance and potential fraud,
                    waste, and abuse by program participants and prohibits the grantees from
                    rectifying deficiencies in a timely manner. The recommendations from the prior
                    year to ensure that the CPD Monitoring Handbook is followed, the information in
                    GMP is accurate, and findings are closed and funds are collected had not been
                    implemented. 36

     CPD Did Not Have a System in
     Place To Ensure Compliance
     With OMB Circular A-133

                    CPD did not have a process in place to ensure that the CPD field offices and
                    OAHP carried out the cognizant oversight or Federal awarding agency for audit
                    responsibilities in accordance with OMB Circular A-133, Audits of States, Local
                    Governments, and Non-Profit Organizations, and OMB Memorandum 10-14,
                    Updated Guidance on the American Recovery and Reinvestment Act. Internal
                    control procedures did not exist to effectively monitor the field offices’
                    compliance with the CPD memorandum issued to the field office directors
                    regarding their responsibilities for Single Audit Act audits. Policies and
                    procedures did not exist to ensure OAHP’s compliance with the Single Audit Act
                    audit requirements for the American Recovery and Reinvestment Act program,
                    Tax Credit Assistance Program (TCAP). In addition, CPD did not have a tracking
                    and reporting mechanism for accurately monitoring and reporting Single Audit
                    Act follow-up results. Management decisions for findings were not made, and
                    corrective actions were not initiated within 6 months of receipt of the audit report,
                    and, therefore, CPD and ultimately HUD were not in compliance with the Single
                    Audit Act.


36
     See Follow-up of Prior Year Audits section of this report, recommendations 3a-3d.


                                                          33
                CPD did not have an effective monitoring procedure in place to ensure or
                determine whether field offices complied with OMB Circular A-133
                requirements. The method used was the quality management reviews, conducted
                through the Office of Departmental Operations and Coordination, in which field
                offices were reviewed on a rotational basis, approximately once every 4 years.

                Over the last 2 years, during the reviews, 43 percent of the field offices reviewed
                (4 of 10 field offices in fiscal year 2010 and 5 of 11 field offices in fiscal year
                2011 for a total of 9 of 21) cited 10 findings and deficiencies (1 field office had 2
                findings) related to the inadequate review, documentation, or follow-up of Single
                Audit Act reports or management decisions and, thus, noncompliance with OMB
                Circular A-133.

                In addition, the findings and observations made during the reviews were closed
                before it could be determined whether the actions taken corrected identified
                deficiencies or produced improvements. CPD’s policy was to wait until those
                field offices were selected again for a review to determine whether the policies
                were in place and working as intended, which could take up to 4 years.

                In fiscal year 2011, 37 OIG reported that OAHP did not have policies and
                procedures in place to ensure compliance with the Single Audit Act requirements
                for TCAP. OAHP also did not have adequate internal controls in place to monitor
                TCAP grantees for compliance with the program regulations or to ensure onsite
                monitoring of the $2.082 billion disbursed of the $2.244 billion in grants awarded.
                Since OAHP lacked staff, expertise, and funding to perform onsite monitoring
                reviews, OAHP planned to use the grantee’ onsite monitoring and reviews of the
                Single Audit Act reports as a monitoring tool.

                During fiscal year 2012, OAHP implemented corrective actions in response to
                OIG’s recommendations 38 and obtained the results of the onsite monitoring
                planned or performed by the TCAP grantees and confirmed that grantees had
                policies and procedures in place to conduct onsite monitoring. OAHP also
                decided on a process for reviewing Single Audit Act audits of TCAP grantees
                quarterly beginning on March 31, 2012, and to take immediate action, as
                appropriate, on any findings, so that findings would be resolved within 3 months
                of OAHP’s initial review. However, OIG noted that the review of the Single
                Audit Act audits generally took place in August of 2012, although some grantees
                had reported findings in the Federal Audit Clearinghouse (FAC) as early as 2011.
                In addition, audit findings were not resolved within 3 months in accordance with
                the policy or within 6 months after the filing date in the Clearinghouse as required
                by OMB regulations.


37
   Audit report 2012-FO-0003, Additional Details To Supplement Our Report on HUD’s Fiscal Years 2011 and
2010 Financial Statements, issued November 15, 2011
38
   See Follow-up of Prior Year Audits section of this report, recommendations 3e-3g.


                                                     34
            Without a system in place to obtain and track the information, CPD could not
            ensure that field offices or offices at headquarters complied with the Single Audit
            Act requirements. Management was not obtaining the audit reports from the FAC
            in a timely manner and resolving the findings within the required timeframe.

Effective Information Systems
Are Necessary

            In our review of the key internal control and compliance components within CPD,
            we noted instances in which the information and communication adversely
            affected the success of the internal controls implemented. The basis of an
            information system is the sharing and processing of information and ideas.
            Computer information systems did not have reliable information, and some
            processes had ineffective means of sharing and processing information.

            In our review of the onsite monitoring of internal controls performed by CPD
            field offices, we noted that the GMP system used to collect and store the results of
            the monitoring and the status of findings did not contain complete and accurate
            information. To that end, it was unclear whether deficiencies or instances of
            noncompliance, which were identified during the onsite monitoring, continued to
            exist or had been corrected. In addition, as some of the onsite monitoring
            procedures resulted in the grantee’s having to return funds, it was also unclear as
            to how many funds were due to HUD and the programs. Without proper follow-
            up by the program when instances of noncompliance were identified and funding
            was requested to be returned, grantees did not have an incentive to implement the
            corrective actions they agreed to or repay funds. Those responsible for following
            up with the grantees cannot efficiently allocate their resources if they cannot
            determine where attention is needed.

            In our review of CPD’s compliance with OMB Circular A-133, Audits of States,
            Local Governments, and Non-Profit Organizations, and OMB Memorandum 10-
            14, Updated Guidance on the American Recovery and Reinvestment Act, we
            noted that a system to collect information, quickly act upon the information
            obtained, and record and store the status of the actions taken by CPD to perform
            its responsibilities in accordance with the requirements was not in place. To that
            end, when compliance was tested, CPD was not compliant.

            CPD’s computer information system, IDIS Online, has been reviewed by OIG in
            prior years. IDIS Online is significant as it is used to manage all of CPD’s
            formula grant programs, which have received approximately $32.7 billion over
            the last 5 years, including $4.75 billion received under the American Recovery
            and Reinvestment Act of 2009. In our reviews of IDIS Online, we identified
            instances in which the information in the system was not always reliable and did
            not have adequate internal controls. In addition, we reported IDIS noncompliant
            with Federal financial system requirements in this report under Material
            Weakness 1: Achieving Substantial Compliance with FFMIA Continued to

                                             35
                 Challenge HUD, due to the system’s use of the FIFO technique, which CPD
                 described as follows:

                         The FIFO technique is applied to funds having the same grant program,
                         source of funds, recipient of funds, and type of funds. The grant year is
                         used to order the funds from oldest year to newest year. When a grantee
                         commits funds to an activity (by funding an activity using the activity
                         funding function), the funds are committed from the oldest funds having
                         the same source of funds, recipient of funds, and type of funds. The
                         grantee is unaware of the year from which the funds are committed.
                         Similarly, when a grantee draws funds, the funds are drawn from the
                         oldest funds having the same source of funds, recipient of funds, and type
                         of funds.

                 The $7.6 million identified as of September 30, 2012, which was unused from
                 grants dating between 1992 and 2001, also accumulated due to a cumulative
                 calculation that allowed poor performance to go undetected and a recapture policy
                 for noncompliant participating jurisdictions that recaptured funds from a current
                 funding source.

                 The commitment, reservation, and disbursement deadlines were determined on an
                 aggregate or cumulative basis versus a grant-year basis. This cumulative process
                 was used as a result of the system’s use of FIFO to commit funds, which does not
                 allow grantees to determine their commitments on a grant-year basis. As
                 commitments were recorded on a FIFO basis, if a grantee was determined to be
                 noncompliant, because of the system’s use of FIFO, it was difficult if not
                 impossible to identify and recapture the uncommitted funds from the grant year in
                 question because those uncommitted funds would be committed to other
                 warranted agreements and would cause those agreements to be unfairly canceled.
                 Therefore, compliance was tested on a cumulative basis, and recaptures were
                 made from uncommitted funds, which were typically current funds, as the older
                 funds were used for commitments on a FIFO basis.

                 In fiscal year 2012, OIG selected a statistical sample of grantees and contacted the
                 grantees to determine the difference between the system’s use of FIFO and the
                 method used by the grantee to record information in its accounting records. The
                 projected results found several irreconcilable differences, which were reported in
                 this report under Material Weakness 1: Achieving Substantial Compliance With
                 FFMIA Continued To Challenge HUD. OIG made recommendations regarding
                 the use of FIFO, which had not been implemented or adequately addressed. 39



39
  See Follow-up of Prior Year Audits section of this report, recommendations 7a-7d and recommendations 1a and
1b under Material Weakness: Achieving Substantial Compliance With FFMIA Continued To Challenge HUD in
this report.


                                                      36
                  In fiscal year 2011 40, OIG reported that CPD did not adequately use IDIS to
                  provide oversight of activities under its CDBG program. As a result, HUD was
                  unaware of how grantees used almost $67 million that was provided to them to
                  fund more than 1,300 activities that they later canceled in IDIS. In addition, HUD
                  lacked adequate oversight of almost $3 billion used to fund more than 20,000
                  long-standing open activities that grantees had reportedly not completed for up to
                  11 years. Further, IDIS did not support internal control activities to help ensure
                  that agency objectives were met and ensure that resources used were safeguarded
                  against waste, loss, and misuse. The recommendations that OIG included in the
                  report had not been implemented, and, thus, the conditions existed in fiscal year
                  2012. OIG also reported in fiscal year 2011 that IDIS Online maintained a record
                  of the last change only and did not maintain an audit trail.

     Conclusion

                  Improvements had been made; however, $7.6 million in HOME grant funds that
                  was made available between 1992 and 2001 was not used to expand the supply of
                  decent, safe, sanitary, and affordable housing for low- and very low-income
                  families. In addition, there was $80.9 million in disbursed funds for which the
                  participating jurisdiction had made its final draw but had not entered the
                  completion and beneficiary information into the system. Therefore, it could not
                  be determined whether the funds were used to meet the program objectives.

                  Information is needed to achieve objectives. Pertinent information should be
                  identified, captured, and distributed in a form and time frame that permits people
                  to perform their duties efficiently. Effective communications should occur in a
                  broad sense, with information flowing down, across, and up the organization.
                  Moreover, effective information technology management is critical to achieving
                  the useful, reliable, and continuous recording and communication of information.

                  For CPD to run and control its operations, it must have relevant, reliable, and
                  timely information and communications relating to internal as well as external
                  events. Operating information is needed to determine whether CPD is achieving
                  its compliance requirements under various laws and regulations. Financial
                  information is needed for both external and internal uses and is required to
                  develop financial statements for periodic external reporting and on a day-to-day
                  basis to make operating decisions, monitor performance, and allocate resources.
                  Unimplemented recommendations made by OIG demonstrate the continued
                  existence of deficiencies.




40
  Audit report 2012-FO-0003, Additional Details To Supplement Our Report on HUD’s Fiscal Years 2011 and
2010 Financial Statements, issued November 15, 2011


                                                    37
Recommendations

          We recommend that the Office of Community Planning and Development

          4.a. Establish a tracking and reporting mechanism for accurately monitoring and
               reporting Single Audit Act follow-up results at the individual
               recommendation and aggregate levels, in accordance with the Audits
               Management System Handbook, to ensure that the 6-month requirements of
               OMB Circular A-133 are met.

          4.b. Develop internal controls to review field office compliance more frequent
               than every 4 years, especially when findings have been identified in the past,
               and to ensure that action plans operate effectively and have addressed the
               deficiencies noted so that noncompliance is not repeated during the next
               quality management review.




                                           38
Significant Deficiency 4: HUD’s Oversight of the Administrative
Control of Funds Process Had Weaknesses
HUD needs to improve its accounting and administrative control of funds to ensure that (1) all
programs that incurred obligations or disbursements have acceptable funds control plans; (2) the
funds control plans are complete, accurate, and updated in a timely manner; and (3) the program
offices comply with their funds control plans. During our review, we identified a number of
program codes that did not have funds control plans. Additionally, we noticed that certain funds
control plans listed as allotment holders individuals who were either (a) no longer with HUD due
to retirement or reassignment, or (b) no longer the designated allotment holder because the
function was reorganized. We noted that OCFO did not ensure an effective administrative
control of funds process as required by HUD’s Policies Handbook 1830.2. Incomplete
implementation of administrative control of funds has been a long-standing issue, which has
been reported since fiscal year 2005 in our audit reports and management letters.


 Some HUD Programs Operated
 Without Funds Control Plans,
 or Plans Were Not Complete,
 Accurate, or Updated

              HUD had not fully implemented a compliant administrative control of funds
              process to ensure that its obligations and expenditures were within authorized
              budget limits and complied with the Antideficiency Act (ADA). Our fiscal year
              2012 review found that several HUD program offices were operating without
              compliant funds control plans for all of their activities.

              The Federal Managers’ Financial Integrity Act of 1982 (FMFIA) provides that
              internal accounting and administrative controls of each executive agency must be
              established to ensure that (1) obligations and costs comply with applicable law;
              (2) funds, property, and other assets are safeguarded against waste, loss,
              unauthorized use or misappropriation; and (3) revenues and expenditures
              applicable to agency operations are properly recorded and accounted for to permit
              the preparation of accounts and reliable financial and statistical reports and to
              maintain accountability for the assets.

              HUD’s Policies Handbook 1830.2 set forth the authorities and responsibilities for
              administering control of HUD’s funds. The handbook states that Congress has
              vested overall responsibility for establishing an effective administrative control of
              funds process with OCFO. It provides the internal guidance for the preparation of
              the funds control plans to comply with the provisions of ADA and FMFIA as well
              as the overall process for reviewing and approving the funds control plans. It
              states that before the Chief Financial Officer may issue an advice of allotment to
              an allotment holder, he or she must provide (1) certification of knowledge and
              acceptance of responsibility to ensure that he or she has established and will

                                               39
     properly execute a funds control plan that provides reasonable assurance that
     obligations and expenditures will not exceed the authorized limits of the funds
     allotted to him or her and (2) submission of an acceptable funds control plan. It
     also states that OCFO will conduct periodic reviews of compliance with funds
     control plans to ensure that adequate funds control is being applied in actual
     practice.

     Between October 1, 2011, and March 31, 2012, HUD disbursed nearly $45.9
     million from programs without having an associated funds control plan in place.

                                         Table 3
                                                              Amount
               Program          No. of programs          disbursed without
                office         with missing plans              plan
             CPD total                 12                      $10,070,701
             Housing total             21                       13,784,430
             PD&R* total                1                        9,763,613
             PIH total                  18                      12,276,992
             Grand total                52                     $45,895,736
            *Office of Policy Development and Research

     Other funds control plans were not complete, accurate, and updated in a timely
     manner. We reviewed 24 of the 40 funds control plans in the “Salaries and
     Expenses Approved Plans” folder on HUD’s funds control plan Sharepoint site.
     Our review found that four of the plans were dated from fiscal years 2008 to 2010
     and listed as the allotment holder individuals who were no longer with HUD due
     to retirement or reassignment or because the function was reorganized. All of
     these circumstances should have required an updated funds control plan.

Funds Control Plan Reviews
Were Not Performed

     HUD did not ensure compliance with funds control plans review requirements.
     HUD’s Policies Handbook 1830.2 states that OCFO will conduct periodic reviews
     of compliance with funds control plans to ensure that adequate funds control is
     applied in actual practice. Our audit found that in fiscal year 2012, HUD did not
     perform any compliance reviews of its funds control plans. HUD staff indicated
     that this was a management decision because it was a priority to ensure that staff
     would be available for ADA investigations. Our review of three of eight ADA
     investigation case files indicated that the program office staff cited OCFO failures
     in updating funds control plans as the reason for the potential violations.

     We also noted that the OCFO Funds Control Assurance Division (FCAD) did not
     make an annual call to program allotment holders to obtain updates to funds
     control plans for the 2011 and 2012 budget fiscal years.


                                       40
Conclusion

             HUD did not design or implement effective controls over its funds control plan
             processes. As a result, in fiscal year 2012, HUD did not have adequate assurance
             that (1) obligations and costs complied with applicable law; (2) funds, property,
             and other assets were safeguarded against waste, loss, unauthorized use, or
             misappropriation; and (3) revenues and expenditures applicable to agency
             operations were properly recorded and accounted for. Additionally, HUD did not
             always comply with its own requirements regarding disbursing funds without a
             compliant funds control plan and did not review funds control plans for
             compliance.

Recommendations

             We recommend that the Chief Financial Officer

             5.a. In coordination with the Office of the Deputy Secretary, emphasize the
                  importance of financial management for the administrative control of funds.

             5.b. Work with program offices to follow HUD’s Policies Handbook 1830.2
                  procedures to ensure that funds control plans are complete, accurate, and
                  updated in a timely manner throughout the appropriation life cycle.

             5.c. Perform compliance reviews of all approved funds control plans on a 5- year
                  cycle.




                                             41
Significant Deficiency 5: Deficiencies Existed in the Monitoring of
HUD’s Unliquidated Obligations
HUD’s processes for monitoring its unliquidated obligations and deobligating balances tied to
invalid obligations had improved; however, deficiencies still existed. Specifically, we identified
$91.7 million in invalid obligations previously not identified by HUD and $16 million in
obligations HUD determined needed to be closed out and deobligated during the fiscal year that
were still on the books as of September 30, 2012. These deficiencies were attributed to
ineffective monitoring efforts, the implementation and lack of familiarity with a new
procurement system, and the inability to quickly process contract closeouts. As a result, HUD’s
unpaid obligation balances were potentially overstated by $107.7 million.


     Homeless Obligations Were Not
     Closed in Accordance With
     Funds Control Plans

                Expired Shelter Plus Care and Supportive Housing Program grants were not
                closed within the 90-day period after the expiration date as required by the
                programs’ funds control plans. The Office of Special Needs Assistance Programs
                (SNAPS) implemented a new program and deobligated contracts that expired
                before June 30, 2011. The approximately 1,800 contracts that expired between
                July 1, 2011, and June 30, 2012, with remaining undisbursed obligation balances
                of $50.6 million were not closed, and the balances were not recaptured.

                The OIG reported $97.8 million in unexpended balances on approximately 3,400
                expired contracts during the fiscal year 2010 audit, 41 as well as an additional
                1,400 expired contracts with $32 million in unexpended balances during the fiscal
                year 2011 audit. 42 As a result of the OIG findings, internal control policies to
                review and close out expired contracts and monitor contracts soon to expire were
                drafted but were not finalized or implemented. In addition, SNAPS implemented
                a new program as a result of the enactment of the Homeless Emergency
                Assistance and Rapid Transition to Housing Act of 2009. Despite not having
                formal policies, as of September 30, 2012, SNAPS had closed approximately
                3,250 contracts from 2010 and deobligated $86.2 million and closed
                approximately 850 contracts from 2011 and deobligated $17.4 million. During
                fiscal year 2012, the program office’s focus was on implementing the new
                program and deobligating the old balances identified in fiscal years 2010 and


41
   Audit report 2010-FO-0003 – Additional Details To Supplement Our Report on HUD’s Fiscal Years 2010 and
2009 Financial Statements, issued November 15, 2010
42
   Audit report 2011-FO-0003 – Additional Details To Supplement Our Report on HUD’s Fiscal Years 2011 and
2010 Financial Statements, issued November 15, 2011


                                                     42
           2011; therefore, it did not concentrate efforts and resources on the contracts that
           were currently expiring.

           The Expired Grants With an Available Balance report as of September 30, 2012,
           showed that $50.6 million in undisbursed obligations remained on more than
           1,800 expired Shelter Plus Care and Supportive Housing Program grants.

Invalid Obligations Were Not
Deobligated by September 30

           Each year OCFO coordinates a review of HUD’s unliquidated obligations. For
           this review, OCFO establishes thresholds to ensure that at least 95 percent of
           HUD’s obligations are reviewed. For fiscal year 2012, program obligations
           exceeding $243,000 and administrative obligations exceeding $23,000 were
           required to be reviewed.

           During the fiscal year 2012 review, 1,283 obligations with remaining balances
           totaling $38 million were marked for deobligation. By September 30, 2012, HUD
           had deobligated 948 of these obligations, leaving 335 invalid obligations with
           remaining balances totaling $14 million on HUD’s books. While the deobligated
           actions accounted for 74 percent of the total actions, the amount remaining
           obligated accounted for 37 percent of the invalid obligations. HUD’s inability to
           process all of the close-outs and deobligations by the end of the fiscal year can be
           attributed to the following factors. First, HUD is not effectively reviewing and
           closing out contracts throughout the year; therefore, the program offices marked a
           large number of obligations for deobligation during the annual review. Second,
           HUD placed a higher priority on processing new awards and obligations than
           processing close-outs and deobligations. Therefore, HUD was unable to process
           all of the necessary contract close-outs and deobligations before the end of the
           fiscal year on top of their regular workload. Of the 335 obligations remaining on
           HUD’s books at year-end, 284 had not been forwarded from the program offices
           to the appropriate office, either the OCPO for administrative obligations or the
           OCFO for program obligations, for close-out and deobligation. As a result,
           HUD’s unliquidated obligation balances were overstated by $14 million. HUD
           has initiated the process of closing these obligations, and the associated funding
           should be recaptured during fiscal year 2013.

HUD’s Administrative
Obligations Were Not
Effectively Monitored

           HUD’s administrative obligations are a result of contracts entered into for the
           goods and services necessary to operate, such as employee training, printing
           services, subscriptions, IT support, and other service contracts. HUD did not
           effectively monitor these obligations to determine that a bona fide need still

                                            43
           existed and the obligations were still valid. Our review identified 3,227
           administrative obligations with remaining balances totaling $33.6 million with no
           activity since fiscal year 2010. Of these, 508 with remaining balances totaling
           $2.5 million were tied to funds that were canceled on September 30, 2012.

           Through a review of HUD’s funds control plans, we noted that several of HUD’s
           program offices relied on the OCFO-coordinated unliquidated obligations review
           to monitor their administrative obigations. Administrative obligations that fell
           under $23,000 were not required to be reviewed during the fiscal year 2012
           review. Of the obligations we identified as inactive, 1,040 were under the
           $23,000 threshold and not reviewed. Additionally, since the OCFO-coordinated
           review is performed annually, any obligations that become invalid during the
           period between the end of the review and the end of the fiscal year would not be
           identified until the following fiscal year.

           As a result, HUD’s September 30, 2012, obligation balances were potentially
           overstated by $31.1 million. Additionally, because most of HUD’s administrative
           obligations are made using annual appropriations, by not periodically reviewing
           their validity throughout the fiscal year, HUD may lose the opportunity to use
           funds tied to obligations that become invalid during the year

Inactive and Expired Section
202 and 811 Obligations Were
Not Identified

           HUD’s Sections 202 and 811 programs provide affordable housing and supportive
           services for the elderly and persons with disabilities. Generally, funds
           appropriated for Section 202 and 811 programs are available for obligation for 3
           years. After 3 years, the funds expire and are not available for obligation,
           necessitating the need to track funds obligated under these programs.

           During fiscal year 2012, HUD did not adequately monitor and deobligate
           unliquidated balances from expired and inactive Section 202 and 811 obligations.
           We reviewed the subsidiary ledger supporting the unliquidated obligations to
           determine whether the reported obligations were valid and whether any invalid
           obligations had been canceled and deobligated. Our review identified $8.8
           million tied to 90 obligations that had either expired or were no longer needed.
           HUD initiated the closeout of these obligations, and the associated balances
           should be recaptured during fiscal year 2013.




                                           44
Emergency Homeowners’ Loan
Program Deobligations Were
Not Completed

             The Emergency Homeowners’ Loan Program authorized approved homeowners
             to receive a maximum of $50,000 in assistance in the form of a declining balance,
             nonrecourse, zero-interest, subordinate secured loan with a term of up to 7
             years. In fiscal year 2011, HUD initially obligated $205.2 million for the credit
             subsidy portion of the direct loans issued by HUD, which were for 5,823 initially
             approved borrowers. During fiscal year 2012, many of the 5,823 initially
             approved borrowers were found to be ineligible during the secondary approval
             process. Additionally, over the course of the year, some of the borrowers who
             passed the secondary approval process exited the program because they no longer
             needed assistance, had received the maximum benefit of $50,000, or were
             terminated for nonpayment of the borrowers’ portion of the mortgage. As of June
             30, 2012, there was approximately $90 million in obligations that had to be
             deobligated due to these circumstances. As of September 30, 2012, $2 million
             remained to be deobligated for borrowers who were no longer eligible to receive
             assistance.

Other Inactive Housing
Program Obligations Were
Identified

             We reviewed the subsidiary ledgers supporting the obligation balances in treasury
             account fund symbols (TAFS) 0303 and 0319 to determine whether the reported
             balances were valid. These TAFS mainly contain funds used for Section 8
             project-based obligations; however, they also contain funds for several small
             grant and other assistance programs. Within these small programs, our review
             identified 69 expired or inactive obligations with remaining balances totaling $1.2
             million. This condition can be attributed to a lack of effective monitoring due to
             these small programs’ no longer receiving appropriations and HUD’s focus on its
             larger obligation balances. As a result, HUD’s unliquidated obligation balances
             were potentially overstated by $1.2 million.

Conclusion

             HUD’s processes for monitoring the validity and need for its unliquidated
             obligations were not fully effective during fiscal year 2012. As a result, we
             identified $91.7 million tied to expired or inactive obligations. Additionally,
             HUD was not able to close out all of the obligations it had identified as invalid by
             the end of the fiscal year. As a result, $16 million in invalid obligations was still
             on HUD’s books at yearend. In total, HUD’s unliquidated obligation balances
             were potentially overstated by $107.7 million.


                                              45
Recommendations

          We recommend that the Office of Community Planning and Development

          6.a. Review the status of these expired contracts, which make up the $50.6
               million, and recapture excess funds for the contracts that have not been
               granted extensions.

          6.b. Review the 270 obligations with remaining balances totaling $432,147 and
               close out and deobligate amounts tied to obligations that are no longer valid
               or needed.

          We recommend that the Office of the Chief Financial Officer

          6.c. Issue a memorandum to the program offices, instructing them to institute
               periodic reviews of their administrative obligations (more frequently than
               once a year) and to document their monitoring efforts in their funds control
               plans.

          6.d. Review the 65 obligations with remaining balances totaling $11,404,776 and
               close out and deobligate amounts tied to obligations that are no longer valid
               or needed.

          We recommend that the Office of the Chief Human Capital Officer

          6.e. Review the 714 obligations with remaining balances totaling $8,428,808 and
               close out and deobligate amounts tied to obligations that are no longer valid
               or needed. Additionally, the $448,022 in five obligations marked for
               deobligation should be deobligated.

          We recommend that the Office of the Chief Information Officer

          6.f. Review the 357 obligations with remaining balances totaling $6,832,833 and
               close out and deobligate amounts tied to obligations that are no longer valid or
               needed. Additionally, the $618,560 in 45 obligations marked for deobligation
               should be deobligated.

          We recommend that the Office of Public and Indian Housing

          6.g. Review the 310 obligations with remaining balances totaling $1,264,887 and
               close out and deobligate amounts tied to obligations that are no longer valid
               or needed.

          We recommend that the Office of Policy Development and Research



                                           46
6.h. Review the 151 obligations with remaining balances totaling $227,803 and
     close out and deobligate amounts tied to obligations that are no longer valid
     or needed.

We recommend that the Office of Departmental Operations and Coordination

6.i. Review the 13 obligations with remaining balances totaling $165,952 and
     close out and deobligate amounts tied to obligations that are no longer valid
     or needed.

We recommend that the Office of General Counsel

6.j. Review the five obligations with remaining balances totaling $129,389 and
     close out and deobligate amounts tied to obligations that are no longer valid or
     needed. Additionally, $2,275 in three obligations marked for deobligation
     should be deobligated.

We recommend that the Office of Fair Housing and Equal Opportunity

6.k.Review the 70 obligations with remaining balances totaling $117,227 and
    close out and deobligate amounts tied to obligations that are no longer valid or
    needed. Additionally, $95,857 in three program obligations marked for
    deobligation should be deobligated.

We recommend that the Office of Housing

6.l. Review the 588 obligations with remaining balances totaling $1,912,078 and
     close out and deobligate amounts tied to obligations that are no longer valid
     or needed. Additionally, $10,565,965 in 209 administrative obligations and
     $145,006 in eight program obligations marked for deobligation should be
     deobligated.

6.m. Coordinate with OCFO to deobligate the $8,126,604 tied to 52 inactive or
     expired funding lines.

6.n. Have the Procurement Management Division review and if necessary
     recapture $626,613 tied to 38 inactive or expired funding lines.

6.o. Review the 69 inactive or expired obligations with $1,202,207 in remaining
     balances and coordinate with OCFO to deobligate any funds that are
     determined to be expired or inactive after review.

6.p. Deobligate the $2 million in remaining loan obligations for ineligible
     borrowers under the Emergency Homeowners’ Loan Program.

We recommend that the Department of Equal Employment Opportunity

                                 47
6.q. Deobligate $54,982 in three administrative obligations marked for
     deobligation during the departmentwide open obligations review.

We recommend that the Office of the Secretary

6.r. Review the 54 obligations with remaining balances totaling $113,215 and
     close out and deobligate amounts tied to obligations that are no longer valid
     or needed.

We recommend that the Office of the Chief Procurement Officer

6.s. Review the 75 obligations with remaining balances totaling $52,078 and
     close out and deobligate amounts tied to obligations that are no longer valid
     or needed.

We recommend that the Office of Healthy Homes and Lead Hazard Control

6.t. Review the 20 obligations with remaining balances totaling $11,630 and
     close out and deobligate amounts tied to obligations that are no longer valid
     or needed.

We recommend that the Office of Field Policy and Management

6.u. Review the 17 obligations with remaining balances totaling $8,277 and close
     out and deobligate amounts tied to obligations that are no longer valid or
     needed.

We recommend that the Office of Strategic Planning and Management

6.v. Review the 10 obligations with remaining balances totaling $5,527 and close
     out and deobligate amounts tied to obligations that are no longer valid or
     needed.




                                 48
Significant Deficiency 6: Controls Over HUD’s Computing
Environment Had Weaknesses
HUD’s computing environment, data centers, networks, and servers provide critical support to
all facets of its programs, mortgage insurance, financial management, and administrative
operations. In prior years, we reported on various weaknesses with general system controls and
controls over certain applications as well as weak security management. These deficiencies
increase risks associated with safeguarding funds, property, and assets from waste, loss,
unauthorized use, or misappropriation.

We evaluated selected information systems general controls of the computer systems on which
HUD’s financial systems reside. We also followed up on the status of previously reported
application control weaknesses. Our review found information systems control weaknesses that
could negatively affect HUD’s ability to accomplish its assigned mission, protect its data and IT
assets, fulfill its legal responsibilities, and maintain its day-to-day functions. Presented below is
a summary of the control weaknesses found during the review.


     Security Implemented on
     HUD’s IBM Mainframe Lacked
     Some Configuration and
     Technical Controls

                During our audit of IBM mainframe security controls for compliance with HUD
                IT policies, Federal information system security requirements, and Federal
                financial management requirements, 43 we identified security configuration and
                technical control deficiencies. Specifically, the mechanisms in place for tracking
                users and system activities and associating them with events and security
                violations were not sufficient. Also, HUD’s IT support contractor did not perform
                a comprehensive annual review to include all required controls for proper account
                management.

                Additionally, we found that access controls over the IBM mainframe were not
                always in place. Access to privileged functions and security-relevant information
                was not restricted to authorized personnel, separation of duties for information
                system functions among users was not adequate, and appropriate access levels
                were not properly enforced on the IBM mainframe for sensitive system files and
                functions. We also determined that authentication controls on the IBM
                mainframe did not meet Federal requirements for proper display of a systems use
                notification message and password complexity.



43
  Audit report 2012-DP-0004, Security Implemented on HUD’s IBM Mainframe Lacked Some Configuration and
Technical Controls, a limited distribution report, issued August 24, 2012


                                                  49
     HUD’s Mobile Devices Had
     Weaknesses

                 We reviewed controls over HUD’s mobile devices 44 and identified security and
                 management control weaknesses that could put HUD’s computing IT
                 infrastructure at risk. Specifically, HUD did not complete a risk assessment to
                 ensure that the impact of mobile devices and their associated vulnerabilities was
                 adequately addressed. Additionally, HUD did not complete the development of
                 policies and procedures governing the security and management of mobile
                 devices. Also, we determined that management controls, such as security
                 configuration settings and monitoring of mobile device use, were not effectively
                 implemented. Lastly, not all hardware or software used by HUD’s mobile devices
                 were Configuration Change Management Board 45 approved.

     Security Management Program
     Needed Improvement

                 During fiscal year 2011, we evaluated HUD’s entitywide information system
                 security program. 46 We reported that although HUD had some components of a
                 comprehensive security environment, there were several areas that needed
                 improvement. HUD’s remote access procedures were weak. Additionally, all
                 staff with login privileges did not receive security awareness training. HUD’s
                 contingency planning program lacked the appropriate structure, and a continuous
                 monitoring strategy had not been established for HUD. Also, risk management
                 was insufficient to address HUD’s missions and goals. Lastly, the capital
                 planning and investment control process did not comply with Federal guidance.

                 We followed up on the status of these weaknesses during fiscal year 2012 and
                 determined that HUD had made some progress in remediating these weaknesses.
                 For instance, HUD had developed a process to ensure that the mission-critical
                 systems list remained current and improved security training to ensure that users
                 were aware of their responsibilities. HUD also maintained records of vendors that
                 supply essential hardware, software, and other components for its IT support
                 contract. However, additional improvements are needed for HUD’s computer
                 security environment. Corrective action had not been completed for 7 of 10
                 recommendations made for this audit report.

44
   Audit Report No. 2012-DP-0005, Review of Controls Over HUD’s Mobile Devices, a limited distribution report,
issued September 28, 2012
45
   The Configuration Change Management Board was established to ensure that all changes made to the HUD IT
infrastructure and system development platforms take place through a rational and orderly process. The IT
infrastructure platform consists of the hardware, software, and telecommunications networks that provide the
operating IT environment for HUD. The system development platform includes the software specifically used to
develop systems and applications. It also includes development standards and processes.
46
   Audit report 2012-DP-0003, Enterprisewide Improvements Are Needed in HUD’s Computer Security
Environment, issued March 23, 2012


                                                      50
     Upgrades to the IBM
     Mainframe Operating System
     and Database Software Were
     Not Performed

                We previously reported that HUD’s IT support contractor did not perform
                preventive maintenance on the IBM mainframe system software to keep products
                up to date and available for support and enhancements. 47 Software patches were
                not always installed, and software versions were not always upgraded to the
                minimum level that is supported by IBM.

                We followed up on the status of these weaknesses during fiscal year 2012 and
                determined that HUD had made progress in remediating these weaknesses.
                CICS 48 upgrades were performed, and progress was made toward upgrading the
                DB2 49 environment. HUD planned to complete corrective actions for the
                remaining weaknesses by November 30, 2012.

     The DRGR System Needed
     Improvements


                We audited HUD’s DRGR system during fiscal year 2011 50 to determine whether
                adequate controls were in place to safeguard, accurately track, and report $1.93
                billion in American Recovery and Reinvestment Act of 2009 funds allocated to
                CPD’s Neighborhood Stabilization Program 2. We found that the improvements
                CPD had made to the DRGR system were beneficial to the overall assurance that
                the system’s data were properly maintained, safeguarded, and in compliance with
                Federal regulations. However, for HUD to address Recovery Act requirements
                for accurate data, additional improvements should be made to the system. We
                recommended that CPD modify the DRGR system to improve its application
                controls. We followed up on the status of these weaknesses during fiscal year
                2012 and determined that most corrective actions had been completed. The
                remaining corrective action is related to the system’s audit logging capabilities.
                The addition of these controls would provide individual accountability and after-
                the-fact investigation of security incidents. HUD was scheduled to complete this
                corrective action by November 21, 2012.



47
   Audit report 2011-DP-0001, HUD Did Not Properly Manage HITS Contracts and Contractors To Fully Comply
With Contract Requirements and Acquisition Regulations, issued October 6, 2010
48
   CICS is a transaction manager designed for rapid, high-volume online processing.
49
   DB2 is a relational database management system.
50
   Audit report 2011-DP-0008, The Disaster Recovery Grant Reporting System That Maintained Recovery Act
Information Had Application Security Control Deficiencies, issued July 28, 2011


                                                   51
     Configuration Management
     Weaknesses


                  During fiscal year 2011, we reviewed the configuration management plan and
                  selected controls for the DRGR system. 51 We noted that (1) the configuration
                  management plan for DRGR contained outdated information, (2) user
                  identification and passwords in the DRGR testing environment were not
                  adequately protected, (3) DRGR test documents contained inaccurate or
                  incomplete information, (4) the DRGR application contractor did not follow
                  HUD’s software configuration management policies, and (5) not all of the
                  software products used by DRGR were approved by the Configuration Change
                  Management Board. HUD expected to complete the corrective actions for these
                  weaknesses by February 2013.

     Contingency Planning and
     Physical Security Had
     Weaknesses

                  During the 2012 disaster recovery exercises, we determined that HUD’s IT
                  support contractor did not use secure containers to protect digital media during
                  transport. An unencrypted magnetic tape containing major application data was
                  transported in a server box from the data center to the disaster recovery site. We
                  discussed this condition with HUD officials during the exercise, and actions were
                  taken to ensure that the media were not transported back to the data center
                  unprotected. The tape in question was locked in the secure cage at the disaster
                  recovery site and will be returned securely during the next disaster recovery test
                  using newly developed procedures.

     Conclusion

                  HUD’s computing environment provides critical support to all facets of its
                  programs, mortgage insurance, financial management, and administrative
                  operations. During fiscal year 2012, as in prior years, we continued to identify
                  information systems control weaknesses that could negatively affect HUD’s
                  ability to accomplish its assigned mission, protect its data and IT assets, fulfill its
                  legal responsibilities, and maintain its day-to-day functions. As a result, OIG
                  continues to report a significant deficiency for HUD’s computing environment.




51
  Audit report 2012-DP-0001, Audit Report on the Fiscal Year 2011 Review of Information Systems Controls in
Support of the Financial Statements Audit, issued February 14, 2012


                                                     52
Recommendations

          Recommendations were included in separate OIG audit reports. Therefore, no
          recommendations are reported here.




                                        53
           COMPLIANCE WITH LAWS AND REGULATIONS

In fiscal year 2012, we found instances in which HUD did not ensure that transactions were
executed in accordance with laws governing the use of budget authority and with other laws and
regulations that could have a direct and material effect on the financial statements and any other
laws, regulations, and governmentwide policies identified in OMB audit guidance.

HUD Did Not Substantially Comply With the Federal Financial
Management Improvement Act

 OIG’s FFMIA Compliance
 Determination


               As reported in prior years and in fiscal year 2012, OIG determined that HUD’s
               financial management systems did not substantially comply with FFMIA because
               of certain weaknesses in HUD’s agencywide financial management systems,
               including IDIS, DRGR, and HIAMS. HUD, on an entitywide basis, made limited
               progress as it attempted to address its financial management deficiencies to bring
               the agency’s financial management systems into compliance with FFMIA.
               Deficiencies remained, and HUD’s financial management systems continued to
               not meet current requirements and were not operated in an integrated fashion and
               linked electronically to efficiently and effectively provide agencywide financial
               system support necessary to carry out the agency’s mission and support the
               agency’s financial management needs. These matters are further described as a
               material weakness in the Internal Control section of this report.

               According to Section 803 of FFMIA, HUD’s financial management systems are
               required to substantially comply with (1) Federal financial management systems
               requirements, (2) applicable Federal accounting standards, and (3) the U.S.
               Standard General Ledger at the transaction level. OIG used OMB’s
               Implementation Guidance for the Federal Financial Management Improvement
               Act, dated January 9, 2009, to determine compliance.

               In fiscal year 2012, although HUD issued a qualified statement of assurance that
               its internal controls over operations (Section 2) and financial management
               systems (Section 4) met the objectives of FMFIA, HUD determined that its
               financial management systems were in substantial compliance with FFMIA as of
               September 30, 2012.




                                                 54
HUD’s FFMIA Compliance
Determination


             In its Fiscal Year 2012 Agency Financial Report, HUD reported that 3 of its 39
             financial management systems did not comply with requirements of FFMIA and
             OMB Circular A-127. Although 36 individual systems had been certified as
             compliant with Federal financial management system requirements, HUD had not
             completed any A-127 reviews in the last 3 years and relied upon the results of
             OMB Circular A-123 and Federal Information Security Management Act annual
             internal control reviews for individual applications. Refer to the material
             weakness finding in the Internal Control section for more details. In addition,
             OIG reported IDIS as a non-FFMIA-compliant system in fiscal years 2010 and
             2011 and HIAMS in fiscal year 2012. However, HUD continued to report IDIS
             as a compliant system in its Agency Financial Report. Since 2010, HUD had not
             communicated in a formal letter to OMB the differences in FFMIA compliance
             determination between OIG and HUD regarding the IDIS system, although such
             communication is required according to OMB Circular A-127.

             We have included the specific nature of noncompliance issues, responsible
             program offices, and recommended remedial actions in appendix B of this report.

Conclusion

             OIG reviewed HUD’s compliance with Section 803 of FFMIA as of September
             30, 2012. In fiscal year 2012, HUD, on an entitywide basis, made limited
             progress as it attempted to address its financial management deficiencies to bring
             the agency’s financial management systems into compliance with FFMIA. In this
             regard, OIG continued to report that HUD’s financial management systems did
             not substantially comply with FFMIA as of September 30, 2012.




                                             55
HUD Did Not Substantially Comply With the Antideficiency Act

HUD’s compliance with ADA 52 still needs improvement. For the fourth consecutive year, our
review found that none of the six ADA cases identified as a potential deficiency in fiscal year
2009 was reported to the President through OMB, Congress, or GAO as required. In two of the
six cases, we found that the status of the violation had changed from prior years. However, in all
six cases, OCFO had not completed its review. Therefore, we found no improvement in HUD’s
process for conducting, completing, reporting, or closing potential ADA violation investigations.


     HUD Had Not Made Progress
     in Reporting ADA Violations as
     Required


                 We have reported in prior year reports that HUD continues to show no substantial
                 improvement to its process for conducting, completing, reporting, and closing the
                 investigation of potential ADA violations. Since FY 2009, we have reported
                 HUD’s failure to report six cases identified as a potential deficiency to the
                 President through OMB, Congress, or GAO as required or determine that no
                 violation had occurred. 53

                 Insufficient policies and procedures, the lack of adequate oversight, and limited
                 staffing were factors in delaying the completion of the investigative process.
                 These factors also impaired the process of completing the preliminary
                 investigation process and, thereby, impacted HUD’s ability to promptly resolve
                 internal control issues that caused the potential ADA violations.

                 OIG made two recommendations in prior years that remain open. Specifically,
                 recommendations 2010-FO-0003-005-A and 2010-FO-0003-005-B were overdue
                 for the implementation of the corrective action as of September 30, 2012.
                 Therefore, OIG has no new recommendations in fiscal year 2012.

     HUD’s Process for Investigation
     of ADA Violations Needs
     Improvement

                 HUD’s policies and procedures for investigating potential ADA violations were
                 ineffective in facilitating the investigative process to ensure that potential ADA
                 violations were reported in a timely manner. We also determined that the
52
  31 U.S.C. 1341, 1342, 1350, 1517, and 1519 (2000)
53
  Audit report 2010-FO-0003, Additional Details To Supplement Our Report on HUD’s Fiscal Years 2009 and
2008 Financial Statements, , dated November 16, 2009


                                                    56
                  structure of the ADA investigative team, the independence of the individuals
                  involved in the investigations, and the management review process were
                  inconsistent with quality standards for investigations.

                  Specifically, the Council of the Inspectors General on Integrity and Efficiency
                  (CIGIE) Quality Standards for Investigations 54 states, “In all matters relating to
                  investigative work, the investigative organization must be free, both in fact and
                  appearance, from impairments to independence; must be organizationally
                  independent; and must maintain an independent attitude.” However, our review
                  of the OCFO’s ADA investigations found that a member of the review team for a
                  not yet reported ADA violation appeared to have involvement in the actions
                  leading to the ADA violation.

                  The U.S. Department of Veterans Affairs and HUD and the Independent Agencies
                  Appropriations Act, 2003 55 gave HUD’s Chief Financial Officer, in consultation
                  with the HUD budget officer, the “sole authority” to investigate potential or actual
                  violations under ADA and all other statutes and regulations related to the
                  obligation and expenditure of funds made available in any act. Further, the
                  Appropriations Act provided that the Chief Financial Officer must determine
                  whether violations occurred and submit the final reports required by law.
                  However, we found that two investigations opened in fiscal year 2012 involved
                  OCFO staff. Therefore, we had concerns about the planning, execution,
                  reporting, and managing of the ADA investigation.

                  The investigative process was inefficient and ineffective primarily because the
                  Chief Financial Officer lacked the resources and staffing to follow established
                  timelines for ADA investigations. We found that in fiscal year 2012, OCFO
                  created an ADA Investigations Task Force to assist in completing long
                  outstanding ADA investigations. However, only one member of the Task Force
                  had training beyond the Principles of Federal Appropriations Law training
                  conducted by GAO. Therefore, we also had concerns about the qualifications of
                  the Task Force participants.

 Conclusion

                  OCFO is responsible for conducting investigations and reporting on ADA
                  violations. HUD’s continued delay in completing ADA investigations and
                  reporting known violations results in ADA violators avoiding timely reprimands
                  or punishments and prevents timely correction of violations. In addition, HUD’s
                  process for conducting ADA investigations needs improvement. As a result,

54
   CIGIE Quality Standards for Investigations, dated November 15, 2011, section B. Independence. CIGIE
standards replaced all references to the President’s Council on Integrity and Efficiency and the Executive Council on
Integrity and Efficiency.
55
   Public Law No. 108-7, Div. K, 117 Stat. 11, 474 (2003)


                                                         57
          ADA investigations were generally not completed within 1 year as set forth in the
          ADA Case Processing Timeline policy. The established policies and procedures
          should be amended to include independence of the investigative team and
          management.

Recommendations

          We recommend that the Office of the Chief Financial Officer

          7.a. Establish policies and procedures for ensuring that investigators and all
               individuals involved in the review or concurrence process do not have any
               personal or external impairment that would affect their independence and
               objectivity in conducting ADA reviews and investigations.

          7.b. For current and future investigations, determine the qualifications and
               independence of personnel used at each stage of the investigation.

          7.c.   Issue a legislative request for funding for additional staffing or to have
                 ADA investigations conducted by an independent external organization.




                                            58
                          SCOPE AND METHODOLOGY

We considered internal controls over financial reporting by obtaining an understanding of the
design of HUD’s internal controls, determined whether these internal controls had been placed
into operation, assessed control risk, and performed tests of controls to determine our auditing
procedures for the purpose of expressing our opinion on the principal financial statements. We
also tested compliance with selected provisions of applicable laws, regulations, and government
policies that may materially affect the consolidated principal financial statements.

We considered HUD’s internal control over required supplementary stewardship information
reported in HUD’s Fiscal Year 2012 Agency Financial Report by obtaining an understanding of
the design of HUD’s internal controls, determined whether these internal controls had been
placed into operation, assessed control risk, and performed limited testing procedures as required
by AU section 558, Required Supplementary Information. The tests performed were not to
provide assurance on these internal controls, and, accordingly, we do not provide assurance or an
opinion on such controls.

With respect to internal controls related to performance measures to be reported in the
Management’s Discussion and Analysis and HUD’s Fiscal Year 2012 Agency Financial Report,
we obtained an understanding of the design of significant internal controls relating to the
existence and completeness assertions as described in section 230.5 of OMB Circular A-11,
Preparation, Submission, and Execution of the Budget. We performed limited testing procedures
as required by AU section 558, Required Supplementary Information, and OMB Bulletin 07-04,
Audit Requirements for Federal Financial Statements, as amended. Our procedures were not
designed to provide assurance on internal control over reported performance measures, and,
accordingly, we do not provide an opinion on such controls.

To fulfill these responsibilities, we

*      Examined, on a test basis, evidence supporting the amounts and disclosures in the
       consolidated principal financial statements;
*      Assessed the accounting principles used and the significant estimates made by
       management;
*      Evaluated the overall presentation of the consolidated principal financial statements;
*      Obtained an understanding of internal controls over financial reporting (including
       safeguarding assets) and compliance with laws and regulations (including execution of
       transactions in accordance with budget authority);
*      Tested and evaluated the design and operating effectiveness of relevant internal controls
       over significant cycles, classes of transactions, and account balances;
*      Tested HUD’s compliance with certain provisions of laws and regulations;
       governmentwide policies, noncompliance with which could have a direct and material
       effect on the determination of financial statement amounts; and certain other laws and
       regulations specified in OMB Bulletin 07-04, as amended, including the requirements
       referred to in FMFIA;


                                               59
*      Considered compliance with the process required by FMFIA for evaluating and reporting
       on internal control and accounting systems; and
*      Performed other procedures we considered necessary in the circumstances.

We did not evaluate the internal controls relevant to operating objectives as broadly defined by
FMFIA. We limited our internal control testing to those controls that are material in relation to
HUD’s financial statements. Because of inherent limitations in any internal control structure,
misstatements may, nevertheless, occur and not be detected. We also caution that projection of
any evaluation of the structure to future periods is subject to the risk that controls may become
inadequate because of changes in conditions or that the effectiveness of the design and operation
of policies and procedures may deteriorate.

Our consideration of the internal controls over financial reporting would not necessarily disclose
all matters in the internal controls over financial reporting that might be significant deficiencies.
We noted certain matters in the internal control structure and its operation that we consider
significant deficiencies under OMB Bulletin 07-04 as amended.

Under standards issued by the American Institute of Certified Public Accountants, a significant
deficiency is a deficiency or a combination of deficiencies in internal control that is less severe
than a material weakness yet important enough to merit attention by those charged with
governance.

A material weakness is a deficiency or combination of deficiencies in internal controls, such that
there is a reasonable possibility that a material misstatement of the financial statements will not
be prevented or detected and corrected on a timely basis.

Our work was performed in accordance with generally accepted government auditing standards
and OMB Bulletin 07-04 as amended. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective(s). We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective.




                                                 60
                      FOLLOW-UP ON PRIOR YEAR AUDITS

Not included in the recommendations listed after each finding are recommendations from prior
years’ reports on HUD’s financial statements that have not been fully implemented based on the
status reported in ARCATS. HUD should continue to track these under the prior years’ report
numbers in accordance with departmental procedures. Each of these open recommendations and
its status is shown below. Where appropriate, we have updated the prior recommendations to
reflect changes in emphasis resulting from recent work or management decisions.


     Additional Details to
     Supplement Our Report On
     HUD’s Fiscal Years 2011 and
     2010 Financial Statements,
     2012-FO-0003

With respect to the significant deficiency that HUD needs to improve the process for reviewing
obligation balances, we recommend that CPD

        1.a. Review the status of each of its homeless assistance contracts that make up the $32
             million OIG identified as excess funding and recapture excess funds for expired
             contracts that have not been granted extension. (Final action target date was
             September 28, 2012; reported in ARCATS as recommendation 2B.) 56

        1.b. Fully implement the internal control procedures and control activities that were
             drafted as a result of the fiscal year 2010 audit finding, which include specific
             policies, procedures, and mechanisms, including appropriate documentation of
             extensions granted and follow-up efforts with the grantees to obtain the closeout
             documents, to ensure that grants are closed out within the 90-day period after the
             contract expiration or after the extension period so that remaining balances are
             periodically recaptured. (Final action target date was June 30, 2012; reported in
             ARCATS as recommendation 2C.)56

With respect to the significant deficiency that HUD needs to improve the process for reviewing
obligation balances, we recommend that the Office of Housing, in coordination with the Chief
Financial Officer,

        2.a. Recapture the $3.8 million tied to the 78 inactive or expired obligations for the
             Section 202 and 811 programs. (Final action target date is December 31, 2012;
             reported in ARCATS as recommendation 2D.)


56
  As of the date of this report, this unimplemented recommendation had a corrective action plan that was overdue
for completion. OIG has performed audit follow-up activities to determine the status of the corrective action plan
and is working with HUD to ensure that it is completed and the recommendation is addressed.


                                                         61
With respect to the significant deficiency that HUD needs to improve the process for reviewing
obligation balances, we recommend that the Office of the Chief Procurement Officer, in
coordination with the Office of Housing,

     2.b. Review and if necessary close out the 76 obligations with remaining balances totaling
          $991,000 that were forwarded by the Office of Housing Assistance and Grants
          Administration. (Final action target date is January 8, 2013; reported in ARCATS as
          recommendation 2E.)

With respect to the significant deficiency that HUD needs to improve the process for reviewing
obligation balances, we recommend that the Chief Financial Officer, in coordination with PIH,

     2.c. For the Office of Public Housing Investment grants,
             i) Close out the 34 predevelopment grants and recapture $24 million in unpaid
                  obligations in LOCCS and
             ii) Perform a review of the 170 grants coded PDEV, LBAC, and COMP and any
                  other grants not subject to or obligated before the Quality Housing Work and
                  Responsibility Act of 1998 to ensure that the grants were obligated properly
                  and not transferred to LOCCS; correct any inaccuracies; and ensure that the
                  accounting records are complete. (Final action target date was January 15,
                  2013; reported in ARCATS as recommendation 2F.)

     2.d. For the Office of the Chief Financial Officer (in regard to Office of Public Housing
          Investment grants),
             i) Perform a $2 million downward and withdrawal adjustment for the
                  unliquidated obligations that are unsupported in the Non-PAS program ledger
                  or provide evidence of the grants for the unpaid obligations and
             ii) Perform a $2.3 million downward and withdrawal adjustment for the
                  duplicated grants. (Final action target date was July 2, 2012; reported in
                  ARCATS as recommendation 2G.) 56

     2.e. For the Office of Public Housing Investment grants,
             i) Improve the PIH and Chief Financial Officer internal control environment to
                  ensure that all grants in appropriation 0304 have a program office responsible
                  for their administration and oversight and periodically conduct reviews of all
                  predevelopment grants;
             ii) For those low-rent grants without supporting documentation, obtain a
                  statement from the field office directors certifying that no documentation is
                  available to support the obligations as evidence to process the grants’ closeout
                  and recapture; and
             iii) Improve the open obligation review process by including all PIH programs in
                  the open obligation review and include quality control testing in the obligation
                  reviews performed by the program offices. (Final action target date was
                  January 15, 2013; reported in ARCATS as recommendation 2H.)




                                               62
     2.f. For the Section 8 Housing Choice Voucher tenant-based program,
             i) Develop formal written procedures to review the program obligations,
             ii) Deobligate $18.3 million in expired contracts, and
             iii) Include the Section 8 tenant-based program obligations in the departmental
                  open obligation review process. (Final action target date is December 31,
                  2012; reported in ARCATS as recommendation 2I.)

With respect to the significant deficiency that CPD needs to improve its oversight of grantees,
we recommend that CPD

     3.a. Ensure that field offices have developed and implemented control activities, which
          are documented and can be periodically tested and monitored by the Office of Field
          Management, to ensure that the field offices have a system to ensure compliance with
          the requirements within the biennial risk analysis process in Notices for
          Implementing Risk Analyses (CPD Notice 09-04) for Monitoring Community
          Planning and Development Grant Programs and the CPD Monitoring Handbook.
          (Final action target date is December 31, 2012; reported in ARCATS as
          recommendation 3D.)

     3.b. Review information within the GMP system for consistency and completeness and
          follow up with field offices when information is incomplete or inconsistent among the
          risk analysis, work plans, and completed monitoring efforts. (Final action target date
          is December 31, 2012; reported in ARCATS as recommendation 3E.)

     3.c. Ensure that all required information has been updated and entered into GMP after the
          due dates for submissions have passed and follow up with field offices that have not
          entered their information. (Final action target date is December 31, 2012; reported in
          ARCATS as recommendation 3F.)

     3.d. Follow up on information in GMP to ensure that findings that had questioned costs
          have been repaid and noncompliance and internal control deficiencies have been
          addressed. (Final action target date is December 31, 2012; reported in ARCATS as
          recommendation 3G.)

     3.e. Develop, document, and implement internal control procedures for OAHP’s review to
          ensure that grantees comply with the terms of the grant agreement, which require the
          grantees to perform monitoring procedures. (Final action target date was October 19,
          2012; reported in ARCATS as recommendation 3H.) 56

     3.f. Develop, document, and implement internal control procedures for the review and
          resolution of audit findings identified in the A-133 single audit reports as reported in
          the FAC, including measures to ensure that all grantees have reported to the FAC.
          (Final action target date was October 31, 2012; reported in ARCATS as
          recommendation 3I.)




                                                63
     3.g.    Maintain documentation readily available to support OAHP’s compliance with the
            requirements of OMB Memorandum M-10-14. (Final action target date is September
            17, 2013; reported in ARCATS as recommendation 3J.) 56

With respect to the significant deficiency that HUD needs to improve its administrative control
of funds, we recommend that OCFO

     4.a    Establish and implement procedures to ensure that all program codes that disburse
            HUD’s funds have complete and approved funds control plans before the funds can
            be disbursed. (Final action target date was June 30, 2012; reported in ARCATS as
            recommendation 4A.) 56

     4.b    Establish and implement procedures to ensure that the funds control plans are updated
            to include the new program codes and new appropriation requirements. (Final action
            target date was August 31, 2012; reported in ARCATS as recommendation 4B.) 56

     4.c    Develop and implement a 3-year cycle of funds control compliance reviews for all
            approved funds control plans by completing the assessments of one-third of approved
            funds control plans each fiscal year. (Final action target date was June 30, 2012;
            reported in ARCATS as recommendation 4C.) 56

With respect to the significant deficiency that HUD needs to continue improving its oversight
and monitoring of subsidy calculations, intermediaries’ performance, and use of Housing Choice
Voucher and operating subsidy program funds, we recommend that PIH

     5.a. Conduct remote monitoring and onsite monitoring as necessary to ensure that PHAs
          have a review process in place to prevent consistency and transcription errors and to
          ensure that income and allowance amounts used in the rent calculation are correct.
          (Final action target date is December 31, 2012; reported in ARCATS as
          recommendation 5A.)

     5.b. Office of Housing report on income discrepancies at the 100 percent threshold level
          as a supplemental measure; assign staff to review the deceased single-member
          household and income discrepancy reports at least quarterly and follow up with
          owners and management agents (O-A) listed on these reports; and include in the
          contract between HUD and O-As a provision for improper payments that requires to
          resolve in a timely manner income discrepancies, failed identity verifications, and
          cases of deceased single-member households. (Final action target date is April 1,
          2014; reported in ARCATS as recommendation 5B.)

With respect to HUD’s substantial noncompliance with the laws and regulations governing
claims of the U.S. Government, we recommend that the Office of Housing

     6.a. Draft and issue guidance regarding collection procedures for delinquent flexible
          subsidy loans and ensure that the policy is communicated to each applicable project



                                               64
           manager and implemented after issuance. (Final action target date is March 1, 2013;
           reported in ARCATS as recommendation 7A.)

 Additional Details to
 Supplement Our Report On
 HUD’s Fiscal Years 2010 and
 2009 Financial Statements,
 2011-FO-0003

With respect to the significant deficiency that HUD’s financial management systems need to
comply with Federal financial management system requirements, we recommend that CPD

     7.a. Cease the changes being made to IDIS for the HOME program related to the FIFO
          rules until the cumulative effect of using FIFO can be quantified on the financial
          statements. (Final action target date was June 21, 2012; reported in ARCATS as
          recommendation 1A.) 56

     7.b. Change IDIS so that the budget fiscal year source is identified and attached to each
          activity from the point of obligation to disbursement. (Final action target date was
          June 21, 2012; reported in ARCATS as recommendation 1B.) 56

     7.c. Cease the use of FIFO to allocate funds (fund activities) within IDIS and disburse
          grant payments. Match outlays for activity disbursements to the obligation and
          budget fiscal source year in which the obligation was incurred and in addition, match
          the allocation of funds (activity funding) to the budget fiscal year source of the
          obligation. (Final action target date was June 21, 2012; reported in ARCATS as
          recommendation 1C.) 56

     7.d. Include as part of the annual CAPER [consolidated annual performance and
          evaluation report] a reconciliation of HUD’s grant management system, IDIS, to
          grantee financial accounting records on an individual annual grant basis, not
          cumulatively, for each annual grant awarded to the grantee. (Final action target date
          was June 21, 2012; reported in ARCATS as recommendation 1D.) 56

With respect to the significant deficiency that HUD needs to improve the process for reviewing
obligation balances, we recommend that the Chief Financial Officer, in coordination with the
appropriate program offices,

     8.a. Review the 510 obligations that were not distributed to the program offices during the
          open obligations review and deobligate amounts tied to closed or inactive projects,
          including the $27.5 million we identified during our review as expired or inactive.
          (Final action target date was October 31, 2011; reported in ARCATS as
          recommendation 2C.) 56

With respect to the significant deficiency that HUD needs to improve the process for reviewing
obligation balances, we recommend that CPD

                                               65
      8.b. In coordination with the Chief Financial Officer, develop and publish written
           guidance and policies to establish a benchmark for field directors to use to determine
           the validity of the open obligation. The guidance should include specific procedures
           for open obligation amounts in which the obligation was made before a specified
           amount of time, as well as disbursement inactivity beyond a specified amount of
           time. (Final action target date was October 31, 2011; reported in ARCATS as
           recommendation 2G.) 56

      8.c. In coordination with the Chief Financial Office, develop procedures to periodically
           evaluate HUD’s program financial activities and operations to ensure that current
           accounting policies are sufficient and appropriate and to ensure that they are
           implemented and operated by program and accounting staff as intended. (Final
           action target date was October 31, 2011; reported in ARCATS as recommendation
           2H.) 56

With respect to the significant deficiency that HUD needs to improve the process for reviewing
obligation balances, we recommend that the Chief Financial Office, in coordination with PIH,

      8.d. Recapture the full amount of obligations from these 434 PIH low-rent grants totaling
           $174 million and return to the U.S. Treasury the total balance of budgetary resources
           from invalid grants. (Final action target date was June 30, 2012; reported in
           ARCATS as recommendation 2N.) 56

With respect to the significant deficiency that CPD needs to improve its oversight of grantees,
we recommend that CPD

     9.a. Review the status of each of its homeless assistance contracts that make up the $97.8
          million OIG identified as excess funding and recapture excess funds for expired
          contracts that have not been granted extensions. (Final action target date was March
          16, 2012; reported in ARCATS as recommendation 4A.) 56

     9.b. Investigate the progress of the 350 stalled activities with funding dates of 2005 and
          prior in which the percentage of amounts drawn on the activity was 50 percent or less
          with a remaining undrawn amount $27.5 million and recapture those amounts in
          which the activity can be canceled. (Final action target date was February 2, 2012;
          reported in ARCATS as recommendation 4F.) 56

With respect to the significant deficiency that HUD needs to improve its administrative control
of funds, we recommend that OCFO

     10.a Establish and implement procedures to ensure accuracy and completeness of ARRA
          funds control plans. (Final action target date was December 30, 2011; reported in
          ARCATS as recommendation 5B.) 56




                                               66
     10.b Conduct periodic reviews of the program offices’ compliance with requirements of
          the funds control plans. (Final action target date was December 30, 2011; reported in
          ARCATS as recommendation 5D.) 56

With respect to the significant deficiency that HUD needs to improve its administrative control
of funds, we recommend that OCFO, in coordination with the appropriate program offices,

     10.c Develop and implement funds control plans for any program found to be without an
          up-to-date funds control plan. (Final action target date was December 30, 2011;
          reported in ARCATS as recommendation 5J.) 56

With respect to HUD’s substantial noncompliance with ADA, we recommend that the Chief
Financial Officer, in coordination with the appropriate program offices,

     11.a Complete required steps on the six known potential ADA issues and report those
          determined to be violations immediately to the President, Congress, and GAO as
          required by 31 U.S.C. (United States Code) and OMB Circular A-11. (Final action
          target date was December 30, 2011; reported in ARCATS as recommendation 6A.)53

     11.b Investigate the potential ADA violation and other interagency agreements that were
          similarly executed. If the investigation determines that an ADA violation occurred,
          immediately report it to the President, Congress, and GAO as required by 31 U.S.C.
          and OMB Circular A-11. (Final action target date was December 30, 2011; reported
          in ARCATS as recommendation 6B.) 56

     11.c Develop or, when appropriate, modify and implement measures to prevent future
          potential ADA violations resulting from contracts funded over multiple fiscal years.
          (Final action target date was December 30, 2011; reported in ARCATS as
          recommendation 6C.) 56

 Additional Details to
 Supplement Our Report On
 HUD’s Fiscal Years 2009 and
 2008 Financial Statements,
 2010-FO-0003

With respect to the significant deficiency that the CPD needs to improve its oversight of
grantees, we recommend that CPD

     12.a Determine whether the $24.7 million in unexpended funds for the HOME program
          from fiscal years 2001 and earlier that are not spent in a timely manner should be
          recaptured and reallocated in next year’s formula allocation. (Final action target date
          was April 1, 2011; reported in ARCATS as recommendation 1E.) 56

     12.b Develop a policy for the HOME program that would track expenditure deadlines for
          funds reserved and committed to community housing development organizations and

                                               67
          subgrantees separately. (Final action target date was September 30, 2011; reported in
          ARCATS as recommendation 1F.) 56

With respect to HUD’s substantial noncompliance with ADA, we recommend that the Chief
Financial Officer, in coordination with the appropriate program offices,

     13.a Complete the investigations and determine whether ADA violations have occurred
          and if an ADA violation has occurred, immediately report to the President, Congress,
          and GAO. (Final action target date was March 11, 2011; reported in ARCATS as
          recommendation 5A.) 56

     13.b Report the six ADA violations immediately to the President, Congress, and GAO, as
          required by 31 U.S.C. and OMB Circular A-11, upon receiving OCFO legal staff
          concurrence with the investigation results. (Final action target date was March 16,
          2011; reported in ARCATS as recommendation 5B.) 56




                                             68
                                    APPENDIXES

Appendix A

      SCHEDULE OF FUNDS TO BE PUT TO BETTER USE

                           Recommendation          Funds to be put
                               number              to better use 1/
                                 2.a.             $           628M
                                 6.a.                        50.6M
                                 6.b.                       432,147
                                 6.d.                   11,404,776
                                 6.e.                     8,876,830
                                 6.f.                     7,451,393
                                 6.g.                     1,264,887
                                 6.h.                       227,803
                                 6.i.                       165,952
                                 6.j.                       129,389
                                 6.k.                       213,084
                                 6.l.                   12,623,049
                                6.m.                      8,126,604
                                 6.n.                       626,613
                                 6.o.                     1,202,207
                                 6.p.                            2M
                                 6.q.                        54,982
                                 6.r.                       113,215
                                 6.s.                        52,078
                                 6.t.                        11,630
                                 6.u.                         8,277
                                 6.v.                         5,527
                                Total             $ 733,590,443



1/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an OIG recommendation is implemented. These amounts include
     reductions in outlays, deobligation of funds, withdrawal of interest, costs not incurred by
     implementing recommended improvements, avoidance of unnecessary expenditures
     noted in preaward reviews, and any other savings that are specifically identified.




                                             69
Appendix B

FEDERAL FINANCIAL MANAGEMENT IMPROVEMENT ACT
NONCOMPLIANCE, RESPONSIBLE PROGRAM OFFICES, AND
        RECOMMENDED REMEDIAL ACTIONS

This appendix provides details required under FFMIA reporting requirements. To meet those
requirements, we performed tests of compliance using the implementation guidance for FFMIA
issued by OMB and GAO’s Financial Audit Manual. The results of our tests disclosed that
HUD’s systems did not substantially comply with requirements. The details for our basis of
reporting substantial noncompliance, responsible parties, primary causes, and HUD’s intended
remedial actions are included in the following sections.

Federal Financial Management Systems Requirements
In fiscal year 2010, OIG reported that C04 – Integrated Disbursement & Information System
(IDIS) was noncompliant with the requirements of OMB Circular A-127. 57 Additionally, OIG
has determined that CPD’s financial management systems did not meet the computer system
requirements of OMB A-127. 58 However, HUD’s annual assurance statement, issued pursuant
to Section 4 of the Financial Manager’s Integrity Act, will report three nonconforming systems,
which do not include IDIS. 59

         The organizations responsible for systems that were found not to comply with the
         requirements of OMB Circular A-127 based on HUD’s assessments are as follows:

     Responsible office                                     Number of        Nonconforming systems
                                                         compliant systems
     Office of Housing                                          16                         0
     Office of the Chief Financial Officer                      13                         0
     Office of Chief Human Capital Officer                       1                         1
     Office of the Chief Procurement Officer                     1                         2
     Office of Community Planning and Development                3                         0
     Office of Public and Indian Housing                         1                         0
     Government National Mortgage Association                    1                         0
     Totals                                                     36                         3



57
   Audit report 2011-FO-0003, Additional Details To Supplement Our Report on HUD’s Fiscal Years 2010 and
2009 Financial Statements, Significant Deficiency 1: HUD Financial Management Systems Do Not Comply With
the Federal Financial Management Improvement Act (FFMIA) of 1996.
58
   Material Weakness: HUD Financial Management Systems Do Not Fully Comply With Federal Financial
Management System Requirements – CPD’s Grants Management Systems Are Not Compliant With Federal
Financial System Requirements.
59
   The three nonconforming systems are (1) A35-HUD Procurement System, (2) P035-Small Purchase System, and
(3) D67A-Facilities Integrated Resources Management System.


                                                    70
We have summarized HUD’s plan to correct noncompliance with OMB Circular A-127 as
submitted to us as of September 30, 2012.

   Facilities Integrated Resources Management System – In fiscal year 2009, OIG identified
   weaknesses related to HUD’s control over acquisition of accountable equipment and property
   management system and made four audit recommendations. The Office of Chief Human
   Capital Officer (OCHCO) is the office responsible for remediating the issues related to the
   Facilities Integrated Resources Management System (FIRMS). At the beginning of fiscal
   year 2012, HUD remediated three (1A, 1B, and 2B) of the four audit recommendations. The
   only recommendation not implemented as of September 30, 2012, was audit recommendation
   2A, which deals with system interfaces with the core financial system and the acquisition
   system. According to OCHCO, FIRMS was not fully operational because the contract had
   expired and a new procurement contract had not been executed. OCHCO indicated that
   funding was available and the procurement process was ongoing. No target completion date
   had been set by HUD for the unimplemented audit recommendation as of September 20,
   2012.


   HUD Procurement System and Small Purchase System - For several years, HUD reported
   the HUD Procurement System (HPS) and Small Purchase System (SPS) as noncompliant
   systems. In fiscal year 2012, OCPO began implementing a new procurement system, the
   HUD Integrated Acquisition Management System (HIAMS), to replace HPS and SPS.
   However, as of September 26, 2012, although no new contract actions were being entered,
   HUD indicated that it would continue to use SPS to issue obligation modifications to existing
   active purchase orders until all the data have migrated from HPS and SPS to the HIAMS data
   warehouse and a system interface for migrated SPS action has been developed, tested, and
   implemented. Target completion was scheduled for the first quarter of 2013, which is the
   date on which OCPO planned to begin the deactivation phase of the HPS and SPS systems.




                                              71
Appendix C

         AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation    Auditee Comments




Comment 1




Comment 2




Comment 3




                          72
Ref to OIG Evaluation   Auditee Comments




Comment 4




Comment 5




Comment 6




                         73
Ref to OIG Evaluation   Auditee Comments




Comment 7




                         74
                         OIG Evaluation of Auditee Comments


Comment 1
            HUD management only provided formal comments related to the material
            weakness; Achieving Substantial Compliance with FFMIA Continues to
            Challenge HUD on which they non-concurred.

            With regard to the detailed comments’ editorial and technical concerns, they were
            reviewed and considered. OIG made adjustments and corrections throughout the
            report as appropriate.

Comment 2
            We disagree with the CFO’s assertion that HUD’s financial management system
            substantially met FFMIA requirements. Determination of whether an agency wide
            compliance with federal requirements depends upon applying experienced
            judgment in assessing the financial impact of noncompliance with the individual
            requirements. Financial impact can affect both accurate financial reporting and
            proper financial decision making. The state of the financial management systems
            at HUD have subjected financial reporting and decision making to above normal
            risks. In fiscal year 2012, HUD’s previously reported risks related to lack of an
            integrated financial management system was heightened by the identification of
            non recording of certain accounts receivable; inaccurate loan loss calculations; as
            well as completeness issues related to intra agency elimination, which impacted
            preparation of the consolidated statements. In fiscal year 2012, we also reported
            that HUD was unable to fully reconcile procurement system discrepancies,
            certain obligation and expenditure amounts did not agree with grantee records and
            that there was not an automated system for a $2 billion loan guarantee program.

Comment 3
            We reviewed the report language and made adjustments to reflect HUD’s
            continuing actions regarding its core financial system replacement efforts.

Comment 4
            OIG commends the CPO and OCFO for their work to reconcile the obligation
            balances between HIAMS and HUDCAPS during the past year. We detailed the
            reconciliation process within the report and utilized the results of that process to
            document the differences between the two applications on September 28, 2012.
            We acknowledge that, as the two offices continue work to reconcile the
            differences, the balances will continue to drop. However, as of September 28,
            2012, the differences we reported are valid and no changes to the report are
            deemed necessary.




                                              75
Comment 5
             HUD disagreed with our positions on CPD grant management issues related to
            compliance with GAAP and IDIS compliance with federal financial management
            system requirements.

            As HUD noted, OIG reported that the accounting for CPD formula grant was not
            in accordance with GAAP. This was due in large part to their use of a FIFO
            methodology, which they have stated relies on using the oldest available funds in
            accounting for its formula grants. This issue was first identified in fiscal year
            2009 and has been repeated in our reports every year since.

            As discussed in the Material Weakness, OIG performed additional procedures in
            an attempt to quantify the effects of using FIFO to record financial transactions,
            by comparing the information in IDIS to the grantee’s records, which is required
            to be maintained using generally accepted accounting principles. While the results
            did not specifically quantify the effects of using FIFO, we found projected
            irreconcilable differences between the grantees’ records of the total obligation
            balance and IDIS, the grantee’s records of disbursements and IDIS, and beginning
            balances. These differences indicated that the data reported in IDIS, and in the
            case of disbursements, initiated by the grantee, was inconsistent with the
            information reported by the grantees maintained using generally accepted
            accounting principles.

            HUD’s response references a CPA study to support their statement that FIFO is in
            accordance with GAAP. We reported in audit report 2011-FO-003 the following
            regarding the results of that study: “While the review found that IDIS provided
            the required data to HUD’s core financial management system; the study itself
            had limitations. OIG’s evaluation of the study’s results noted (1) the contractor
            improperly excluded IDIS as part of HUD’s financial management system and
            subject to the requirements of FFMIA, (2) did not support its conclusion that
            FIFO was compliant with Federal systems requirements with criteria or
            procedures, and (3) did not consider the FIFO mismatch effect prior to being
            posted to the core financial system. The contractor examined IDIS’s compliance
            with Federal financial management requirements after IDIS had inappropriately
            used FIFO and a budget fiscal year appropriation inconsistent and mismatched
            from the obligating budget fiscal year appropriation.”

            In regards to HUD’s reference to an OGC opinion, the opinion did not reference
            and stated that it did not consider accounting guidance in its analysis. In its
            efforts to support the use of FIFO, HUD has not provided a response indicating
            how the use of the FIFO methodology is supported by GAAP requirements or
            federal financial management system requirements.

Comment 6
            OIG reviewed HUD’s position regarding the details of Section 108 payments and
            adjusted the wording in the report. However, the main point regarding the

                                            76
            Section 108 program is that the subsidiary ledgers which support the general
            ledger balances are manually maintained in spreadsheets and account for over $2
            billion in loan guarantees. The current process in place lacks the ability to
            automatically link associated grant data with loan guarantees and perform
            automated financial management functions such as general ledger, payment, and
            receivable management.

Comment 7
            OIG acknowledges the Department’s renewed effort at designing and
            implementing a compliant integrated financial management system. As we
            continue to monitor HUD’s progress, it is our hope that your efforts will be
            successful.

            As noted before, due to the multiple control deficiencies within HUD’s integrated
            financial management system, there is a reasonable possibility that a material
            misstatement of the entity’s financial statements will not be prevented, or detected
            and corrected on a timely basis. Accordingly, we are classifying this issue as a
            material weakness.

            OIG cannot agree to the CFO's request that we revise our report as requested,
            lowering this issue’s level from a material weakness to a significant deficiency.




                                             77
